<html>
<title> - EARLY CHILDHOOD DEVELOPMENT AND EDUCATION IN INDIAN COUNTRY: BUILDING A FOUNDATION FOR ACADEMIC SUCCESS</title>
<body><pre>[Senate Hearing 113-300]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-300

                    EARLY CHILDHOOD DEVELOPMENT AND 
EDUCATION IN INDIAN COUNTRY: BUILDING A FOUNDATION FOR ACADEMIC SUCCESS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2014

                               __________

         Printed for the use of the Committee on Indian Affairs



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







                         U.S. GOVERNMENT PRINTING OFFICE 

88-307 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
















                      COMMITTEE ON INDIAN AFFAIRS

                     JON TESTER, Montana, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
TIM JOHNSON, South Dakota            JOHN McCAIN, Arizona
MARIA CANTWELL, Washington           LISA MURKOWSKI, Alaska
TOM UDALL, New Mexico                JOHN HOEVEN, North Dakota
AL FRANKEN, Minnesota                MIKE CRAPO, Idaho
MARK BEGICH, Alaska                  DEB FISCHER, Nebraska
BRIAN SCHATZ, Hawaii
HEIDI HEITKAMP, North Dakota
        Mary J. Pavel, Majority Staff Director and Chief Counsel
              Rhonda Harjo, Minority Deputy Chief Counsel


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 26, 2014................................     1
Statement of Senator Barrasso....................................     3
Statement of Senator Heitkamp....................................     3
Statement of Senator Tester......................................     1

                               Witnesses

Costello, E. Jane, Professor, Department of Psychiatry and 
  Behavioral Medicine; Associate Director for Research, Center 
  for Child and Family Policy, Duke University...................    34
    Prepared statement...........................................    36
Fabre, Barbara, Chairwoman, National Indian Child Care 
  Association; Director, Child Care/Early Childhood Program, 
  White Earth Nation.............................................    24
    Prepared statement...........................................    25
Power, Jacquelyn, Superintendent/Principal, Blackwater Community 
  School.........................................................    29
    Prepared statement...........................................    31
Smith, Linda K., Deputy Assistant Secretary/Inter-Departmental 
  Liaison for Early Childhood Development, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services.......................................................     4
    Prepared statement...........................................     6
Wells, Danny, Executive Officer, Division of Education, Chickasaw 
  Nation.........................................................    17
    Prepared statement...........................................    19

                                Appendix

Darling, Sharon, President/Founder, National Center for Families 
  Learning (NCFL), prepared statement............................    46
Goes Ahead, Ginger, Program Manager, Crow Head Start Program, 
  prepared statement.............................................    44
Haight, Jacki, President, National Indian Head Start Directors 
  Association, prepared statement................................    49
Hee, Wendy Roylo, Executive Director, Native Hawaiian Education 
  Council, prepared statement....................................    56
Naone, Dr. Kanoe, CEO, INPEACE, prepared statement...............    53
National Indian Education Association, prepared statement........    47
Rawlins, Namaka, `Aha Punana Leo, Inc., prepared statement.......    52
Schatz, Hon. Brian, U.S. Senator from Hawaii, prepared statement.    43
Whipple, Willeen, Senior Manager--Tribal Affiliations, Parents as 
  Teachers National Center, prepared statement...................    55

 
                    EARLY CHILDHOOD DEVELOPMENT AND 
                     EDUCATION IN INDIAN COUNTRY: 
               BUILDING A FOUNDATION FOR ACADEMIC SUCCESS

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2014


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. Jon Tester, 
Chairman of the Committee, presiding.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    The Chairman. Good afternoon, and welcome.
    Today marks my first hearing as Chairman of this Committee, 
and I look forward to working with each of my colleagues, 
including my ranking member, to address the challenges that are 
facing American Indians and Alaska Natives across this Country.
    I grew up neighbors to Indian Country. I am humbled by the 
responsibility to serve it in this position. I know that every 
member of this Committee shares my commitment to ensure the 
tribes in Indian communities have every opportunity to succeed 
and grow and that we are protecting and honoring our 
responsibilities to Indian Country.
    I also want to begin my tenure here as Chairman with a 
little action and an extended invitation to my colleagues on 
this Committee, whether you are here today or watching, to come 
up to me with any bills that we might be able to take up in 
this Committee so that we can move them out of this Committee 
quickly, get them to the Senate Floor, and move them onto the 
President's desk. I am looking forward to taking action on the 
important legislation that is so meaningful for our 
constituents and utilizing this Committee to continue to move 
Indian Country forward.
    Speaking of moving Indian Country forward, today's hearing 
is on Early Childhood Development and Education in Indian 
Country: Building a Foundation for Academic Success, the first 
of what I hope will be a series of hearings to examine the 
educational needs in Indian Country. This is a very important 
issue to the tribes in my home State of Montana and across this 
Country. Just last week I toured several reservations in 
Montana and education was a prominent concern that was brought 
up in all of these communities.
    As a former educator, I know first-hand the impacts of 
quality education and what those impacts can have on our youth 
throughout their lives. I believe that improving these 
opportunities can be a starting point for addressing man of the 
issues that are so prevalent throughout much of Indian Country.
    Today we are going to focus specifically on early childhood 
education. Among the many benefits of early intervention and 
supporting early childhood development is the potential for 
increasing family and community involvement and the lives of 
our children. When we invest in early childhood, we are 
investing not only in the child but the family and the 
community around him or her. And to me, that is a good policy.
    Another important benefit that I want to highlight and that 
I know we will discuss in further depth today is the ability of 
our programs to support Native languages and help preserve and 
protect these important connections to Native culture and 
identity, which is something I strongly support. There are many 
programs under the Federal umbrella that provide early 
childhood development and education for Native children. We 
need to look at whether these programs are operating 
efficiently and effectively and to see what steps we need to be 
taking in Congress, if any, to improve the quality of early 
childhood education that Native children are receiving.
    Our witnesses represent a wide array of Indian programs 
that provide early childhood education on tribal lands, 
including the Department of Health and Human Services Child 
Care Development Block Grant Recipient and the Family and Child 
Education program supported by the Bureau of Indian Education 
at the Department of Interior. Another witness is an 
administrator from the tribal division of education, Dr. 
Costello from Duke University, who has joined us to discuss the 
impacts that early investment in a child's life can have on the 
long-term outcome for that child.
    Before that, we will be hearing from the Department of 
Health and Human Services. I am excited to learn that the 
Department's witness is a fellow Montanan. I look forward to 
hearing from all our witnesses today about early childhood 
development and education programs operating in Indian Country. 
I welcome suggestions for what Congress can do to improve these 
programs.
    In particular, I hope we can discuss how these programs are 
working together. Several programs and services are often 
similar or duplicative. And we must make these programs more 
efficient and at the same time ensure that Native youth are 
provided with the best opportunities to lead fulfilling and 
protective academic lives.
    I want to thank the witnesses for traveling a long way to 
Washington, D.C. to present your perspective on this important 
issue. With that, I will turn to Senator Barrasso, Ranking 
Member Barrasso, for his statement.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
holding this hearing on early childhood development and 
education in Indian Country. I want to begin by welcoming you, 
Senator Tester, to your new role as Chairman of the Committee 
on Indian Affairs. I look forward to continuing to work with 
you and continuing this Committee's longstanding tradition of 
bipartisanship.
    Over the years, the Committee has held several oversight 
hearings on education in Indian Country, as you mentioned. The 
consistent message from tribal leaders has been that education 
for their people is among the highest of all priorities.
    We all know that a quality education is a critical factor 
for success in today's world. The earlier it can start for 
children, the better. So I look forward to hearing how well 
Indian children are being prepared for tomorrow and what 
improvements are still needed.
    I also want to welcome the witnesses to today's hearing. 
Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator Heitkamp?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, and I guess I should 
congratulate my good friend from Montana, Jon Tester, on taking 
over on this Committee. I think he is somebody who completely 
understands the challenge of many of the tribes that live in 
North Dakota and certainly the large land tribes. Being an 
educator, I think he shares the concerns of so many of us 
regarding Indian education.
    Just to tell a story, a tribal chairman in my State, 
Standing Rock, recently talked to me. His whole focus was 
education. He said, do you ever watch the little kids run to 
the bus on the reservation? They run and their spirits are 
high. It seems to soar. He said, then they get kind of in sixth 
grade and they walk to the bus. And then they get to high 
school and they walk away from the bus. Something happens 
there, from that exuberant spirit of starting an education and 
opportunity to walking away from education. This is the hope, 
that when we all work together and we begin to have hearings 
like this, begin to talk about how we can solve these problems, 
that we will see educational achievements, at least equal to 
the other residents of my State, within Indian Country.
    I know we can accomplish that, because it is not about the 
limitations of the child, it is about the limitations of the 
system. So thank you, Mr. Chairman, for holding this hearing. 
Ranking Member Barrasso, I share with you your concerns and 
hope that I can be part of any solution discussions that we 
have as a result.
    The Chairman. And you will be. Thank you for your comments.
    Now I would like to welcome the first panel, the first 
panel is a panel of one. I would like to welcome that panelist, 
Ms. Linda Smith, Deputy Assistant Secretary and Inter-
Departmental Liaison for Early Childhood Development at the 
Administration for Children and Families. You will be 
presenting the views of the Department of Health and Human 
Services. Welcome, Linda, we look forward to your testimony, 
and you may begin.
    And if you could keep it to five minutes, we would 
appreciate it. Your full testimony will be a part of the 
record.

         STATEMENT OF LINDA K. SMITH, DEPUTY ASSISTANT 
   SECRETARY/INTER-DEPARTMENTAL LIAISON FOR EARLY CHILDHOOD 
                DEVELOPMENT, ADMINISTRATION FOR 
  CHILDREN AND FAMILIES, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Ms. Smith. Chairman Tester, Vice Chairman Barrasso and 
members of the Committee, I am pleased to be here today, and 
especially to discuss early childhood education in Indian 
Country.
    First I want to congratulate you, sir, as you convene your 
first hearing as Chair of this Committee. And I think it is 
amazing that it happens to be on early childhood education, 
where we know it all begins.
    It is my honor to serve as Deputy Assistant Secretary for 
Early Childhood Development at the Administration for Children 
and Families. I am responsible for tribal home visitation, 
child care, Head Start and Race to the Top Early Learning 
Challenge. The Early Learning Challenge, by the way, is jointly 
administered with the Department of Education.
    I am a native of Montana and was born and raised on the 
Flathead Reservation in Northwestern Montana. In fact, I 
volunteered in one of the first Indian Head Start programs on 
the reservation. That experience still influences many of the 
decisions I make today.
    My first paid position in the early learning field was in 
the Northern Cheyenne Reservation where I was hired by the 
tribal community action program to set up a child care program. 
I have witnessed first-hand the differences that these programs 
can make for our Native American children's school readiness 
and family stability.
    Through our work with tribes, we are seeing improved 
conditions in Indian Country. For example, in Minnesota, we 
funded the Alliance for Early Childhood Professionals to expand 
early learning environments in the Dakota and Ojibwe languages. 
Children in the program report a new sense of self-awareness, 
improved academic performance and are more active participants 
in school. The wider Ojibwe and Dakota community also report a 
renewed sense of pride and hope as they see children speaking 
their native languages. As one teacher said, if we revitalize 
our language, we revitalize our people.
    Despite the progress, much remains to be done. In 2010, 
over 28 percent of American Indians lived in poverty, compared 
to just over 15 percent of the total population. Of those over 
age 25, 77 percent had a high school diploma and 13 percent had 
a bachelor's degree, compared with 86 and 28 percent, 
respectively, for the U.S. population. Twenty-eight percent of 
Native American households with children were food insecure, 
compared with 16 percent of non-Indian households. And finally, 
Native American children are more likely to experience 
violence, substance abuse and neglect.
    Given these facts, we are working to improve the well-being 
and early education of Native American children. Our efforts 
reflect the President's Early Learning Initiative, which starts 
with home visitation as the early point for early childhood 
services and continues to school entry. The tribal home 
visitation program is administered by ACF in collaboration with 
the Health Resources and Services Administration. It is funded 
by a 3 percent setaside from the Maternal Infant and Early 
Childhood Home Visitation Program.
    The program supports the development of Native American 
children through voluntary, culturally-appropriate, evidence-
based home visiting. To date, we have competitively awarded 25 
grants totaling over $32 million to tribes and urban Indian 
organizations. Over 100 tribal entities have applied for 
funding.
    As a part of our home visiting efforts, we are exploring 
ways to validate an early childhood developmental screening 
instrument in Native populations to ensure that children are 
appropriately screened for developmental delays at the earliest 
possible times. We know that the earlier the delays are 
identified, the sooner children can receive services and the 
better their odds are for success.
    In tribal communities, the Child Care and Development Fund 
plays a crucial role in supporting parents as they move toward 
economic self-sufficiency and improving learning for children. 
CCDF, as it is known, is authorized by the Child Care and 
Development block grant. It provides funding to 260 tribes that 
either directly or through consortia arrangements administer 
child care programs for over 500 federally-recognized tribes. 
The tribes receive up to 2 percent of CCDF funding, or about 
$100 million. In 2011, approximately 30,000 children were 
served with this program.
    Tribal grantees incorporate culturally-relevant activities 
into their child care programs. For example, the Chippewa Cree 
Tribe on Rocky Boy's Reservation in Montana blended child care 
funding with funding from the Administration for Native 
Americans to create language immersion child care programs from 
birth to three. In addition to child care, we provide funding 
for 150 Head Start programs across 26 States. These programs 
serve more than 22,000 children by providing comprehensive 
health, education, nutrition and other services. Family 
engagement is strong. Last year, over 24,000 parents and 
community members served as volunteers. Funding for this fiscal 
year is over $123 million.
    Our tribal Head Start programs have worked hard to improve 
school readiness and meet the new teacher requirements required 
by Congress. Today, 70 percent of all preschool teachers have 
an associate degree and 32 percent have a BA degree or higher.
    HHS partners with the Department of Education to administer 
the Early Learning Challenge program. This program supports 20 
States in developing new approaches to close the school 
readiness gap and improve our systems. States actively partner 
with tribal programs. For example, Minnesota is working 
directly with the White Earth Reservation, which is among 
Minnesota's poorest communities. Funds support school readiness 
scholarships, workforce development and health consultation to 
child care providers.
    Lastly, I would like to thank Congress for appropriating 
the $500 million to improve the quality of programs for infants 
and toddlers through the Early Head Start Child Care 
Partnership program. This year, at least $15 million of that 
money will be available to programs in tribal communities.
    In closing, let me say that we at ACF are committed to 
ensuring that programs are responsive to the tribal community's 
values, needs, traditions and priorities. I appreciate the 
Committee's interest in this issue and I would welcome and be 
happy to address any questions that you have.
    [The prepared statement of Ms. Smith follows:]

Prepared Statement of Linda K. Smith, Deputy Assistant Secretary/Inter-
 Departmental Liaison for Early Childhood Development, Administration 
for Children and Families, U.S. Department of Health and Human Services
    Chairman Tester, Vice Chairman Barrasso and members of the 
Committee, I am pleased to appear at this hearing to discuss early 
childhood development and education in Indian Country. I want to take a 
moment to congratulate Chairman Tester as he convenes his first hearing 
as the Chairman of this Committee and to thank the former Chair, 
Senator Cantwell, for her work to improve the outcomes for children and 
families in Indian Country. The Department of Health and Human Services 
(HHS) looks forward to continuing to work with the Chairman and the 
other Members of this Committee.
    It is my honor to serve as Deputy Assistant Secretary and 
Interdepartmental Liaison for Early Childhood Development at HHS's 
Administration for Children and Families (ACF). Here at HHS, I am 
responsible for the Tribal Home Visitation, Child Care, Head Start and 
Early Head Start Programs and the Race to the Top--Early Learning 
Challenge program, which we jointly administer with the Department of 
Education.
    I am a native of Montana and was born and raised on the Flathead 
Reservation in Northwestern Montana. In fact, I volunteered in one of 
the first Indian Head Start Programs on the Flathead Reservation and 
that experience influences many of my decisions today. My first 
position in the early learning field was on the Northern Cheyenne 
Reservation where I was hired by the Tribal Community Action Program to 
set up a child care program, following that I set up a preschool 
program for children aged two to five at the St. Labre Indian Mission. 
I witnessed first-hand the difference that such programs can make for 
our Native American children's school readiness and for their families' 
stability.
    I bring this background to my current position and that is why I am 
so pleased to be here today. I am passionate about the need to better 
serve our Native American communities. Through ACF's work with tribes, 
we are seeing improved conditions in Indian Country. For example, in 
Minnesota we funded the Alliance of Early Childhood Professional to 
expand preschool program capacity to provide challenging and 
stimulating learning environments in the Dakota and Ojibwe languages. 
Children in the program report a new sense of self-awareness, improved 
academic performance and more active participation in school. The wider 
Ojibwe and Dakota community also reported a renewed sense of pride and 
hope as they see children speaking their Native language. As one 
teacher said, ``If we revitalize our language, we revitalize our 
people.''
    Another ACF funded project, a summer camp in the Native Village of 
Afognak, Alaska, is connecting children with their heritage and helping 
them form positive, supportive relationships with Tribal elders. These 
youth are also demonstrating improved communication and conflict 
resolution skills.
    Despite the progress being made, there is much work that remains to 
be done. In the 2010 to 2011 school year, the percentage of children 
and youth served under the Individuals with Disabilities Education Act 
was highest for American Indians/Alaska Natives. In 2010, approximately 
28.4 percent of the AI/AN population lived in poverty compared to 
approximately 15.3 percent of the total population. In 2010, 
unemployment on Indian reservations was at approximately 50 percent and 
49 percent of AI/AN children lived with parents who lacked secure 
employment compared to approximately 33 percent of the total U.S. 
population. In 2010, of those aged 25 and older, approximately 77 
percent had a high school diploma and approximately 13 percent had a 
bachelor's degree, compared to approximately 86 percent and 28 percent 
respectively for the entire U.S. population. The AI/AN population has 
approximately 1.6 times the infant mortality rate of the non-Hispanic 
White population and AI/AN infants are approximately 1.7 times as 
likely to die from Sudden Infant Death Syndrome (SIDS). They are 
approximately 2.5 times as likely as Non-Hispanic White infants to have 
mothers who began prenatal care in the third trimester or did not 
receive prenatal care at all. Children in AI/AN families are more 
likely to experience violence, substance abuse and neglect. A study of 
Adverse Childhood Experiences (ACES) in seven tribes found that 
approximately 86 percent of participants had one or more adverse 
experiences and approximately 33 percent had four or more. Finally, 
approximately 28 percent of AI/AN households with children were food 
insecure, compared to approximately 16 percent of non-AI/AN households.
    Given these facts, HHS is moving forward through a number of 
programs to improve the well-being and education of AI/AN children. ACF 
has four important programs that serve children prenatally through 
school entry that I will discuss. These efforts mirror the President's 
Early Learning Initiative, which starts with home visiting as the entry 
point for early childhood services through the Maternal, Infant, and 
Early Childhood Home Visiting (MIECHV) Program and also includes:

  <bullet> The Child Care and Development Fund;
  <bullet> Early Head Start and Head Start Programs;
  <bullet> The Race to the Top--Early Learning Challenge Program; and
  <bullet> The Tribal Early Learning Initiative.

    In addition to these programs, the Administration for Native 
Americans, an office within ACF, supports projects targeted to 
education, including early education. We also work collaboratively with 
the Department of Education, which administers the Individuals with 
Disabilities Education Act (IDEA). IDEA Part C and Part B, Section 619 
funds are distributed directly to Tribes through the Bureau of Indian 
Education for the coordination of services for AI/AN children with 
disabilities. Finally, we are currently working to implement the Early 
Head Start/Child Care Partnerships funded this year by the Omnibus 
Appropriations Act.
Tribal Home Visiting
    The Tribal Home Visiting Program is administered by ACF in 
collaboration with the Health Resources and Services Administration 
(HRSA) and is funded by a three percent set-aside within the MIECHV 
Program. The Tribal program supports the development of happy, healthy, 
and successful AI/AN children and families through voluntary, high 
quality, culturally relevant, home visiting services that address 
critical maternal and child health, child development and early 
learning, family support, and child abuse and neglect prevention needs 
and promote linkages among the various early childhood programs. Home 
visiting programs serve pregnant women, expectant fathers, parents and 
primary caregivers of children from birth through kindergarten entry.
    The Tribal Home Visiting Program is an evidence-based program. ACF 
conducted a systematic review of home visiting models previously 
implemented in tribal communities and found that none met HHS 
``evidence-based'' criteria for use with AI/AN populations. Home 
visiting models selected by tribal home visiting grantees are 
considered ``promising approaches'' and must be rigorously evaluated to 
contribute to the evidence base. Models selected by tribal home 
visiting grantees include Parents as Teachers, Family Spirit, Nurse 
Family Partnership, Parent-Child Assistance Program, Healthy Families 
America, SafeCare, and Healthy Steps.
    To date, we have competitively awarded 25 grants totaling $32.5 
million to three cohorts of tribes, consortia of tribes, tribal 
organizations and Urban Indian Organizations. Tribal interest in the 
program is very strong; over 100 tribal entities from 25 states have 
applied for funding. Tribal Home Visiting grantees, such as the 
Confederated Salish and Kootenai Tribes and the Northern Arapaho Tribe 
on the Wind River Reservation, are located in 14 states, including 
Montana, Wyoming, Washington, Arizona, Alaska, New Mexico, and 
Minnesota. Grants were awarded for five-year periods. Additionally, 
HRSA's state Home Visiting Program in 11 states is currently working 
with 24 tribal communities to provide evidence-based home visiting 
services.
    ACF provides extensive technical assistance to grantees through a 
Tribal Home Visiting Technical Assistance Center, the Tribal Home 
Visiting Evaluation Institute and a Tribal Early Childhood Research 
Center that supports leadership and promotes community-based 
participation in the research and evaluation of the program.
    Tribal Home Visiting grantees have had many successes in 
developing, implementing, and evaluating programs that meet the needs 
of their communities. This includes using the needs assessment process 
as a community engagement strategy; involving elders and community 
members throughout planning, implementation, and evaluation; capacity 
building for implementation of evidence-based practices, data 
collection, research, and evaluation; innovations in cultural 
adaptation and service delivery; and service integration and systems 
building. The Tribal Home Visiting grants have been seen by many tribal 
communities as a source of hope, transformation, and healing to recover 
from generations of trauma and loss.
    As a part of the Tribal Home Visiting Program, we are exploring 
possible ways to validate an early childhood development screening 
instrument in Native American populations to ensure that children are 
appropriately and adequately screened for developmental delays as early 
as possible. We know that the earlier delays are identified, the sooner 
children can receive the services they need, and the better their odds 
for success will be.
    Additionally, tribes or tribal organizations receive MIECHV funds 
from states via subcontracts. Eleven state MIECHV programs are 
currently working with 24 tribal communities to provide evidence-based 
home visiting service. Through statewide needs assessments these tribal 
communities have been identified as at-risk communities and have been 
prioritized to receive state MIECHV funding.
Child Care and Development Fund
    In tribal communities, the Child Care and Development Fund (CCDF) 
plays a crucial role in offering child care options to parents as they 
move toward economic self-sufficiency, and in promoting learning and 
development for children. CCDF, which is authorized by the Child Care 
and Development Block Grant (CCDBG) Act, is a dual purpose program with 
a two-generational impact, uniquely positioned to support both school 
readiness and family economic success. CCDF provides access to child 
care for low-income parents in order to enable them to work and gain 
economic independence, and it supports the long-term development of our 
Nation's most disadvantaged and vulnerable children by making 
investments to improve the quality of child care.
    CCDF is especially important because it has such a broad reach in 
Indian Country. CCDF currently provides funding to approximately 260 
tribes and tribal organizations that, either directly or through 
consortia arrangements, administer child care programs for over 500 
federally-recognized Indian tribes. By law, tribes receive up to two 
percent of CCDF funding, or about $100 million. Tribal CCDF grantees, 
who served approximately 30,000 children in fiscal year 2011, are 
generally located in rural and economically challenged areas.
    One of the key goals of CCDF is helping children from low-income 
families access high quality care. Tribal grantees are innovative in 
how they invest in quality, and many tribal grantees incorporate 
culturally-relevant activities into their child care programs. Tribes 
preserve their languages by developing child care curricula that 
focuses on Native American language. For example, the Chippewa-Cree 
Tribe of Rocky Boy's Reservation in Montana braided CCDF funding with 
grant funding from the Administration for Native Americans to create a 
language immersion child care program for children from birth to age 
three. The Houlton Band of Maliseet Indians in Maine invited Tribal 
Elders to teach children traditional stories in their native language. 
Given the research on the positive cognitive benefits of bi- or 
multilingualism, these are powerful innovations that have important 
impacts on young children. Tribal grantees also include traditional 
song and dance, regalia making, and other cultural activities to enrich 
children's learning experiences in child care and engage families in 
their children's care and education.
    The CCDBG Act allows Tribal Lead Agencies to use CCDF funds for 
construction or renovation of child care facilities. Since 1997, 131 
new child care facilities have been constructed. Within the new 
facilities, tribes have also included space for gardens with 
traditional plants and playgrounds that incorporate Tribal culture into 
the design.
    Tribes also use CCDF to coordinate with Head Start and Tribal Home 
Visiting Programs and to pool resources. In some tribes, child care and 
Head Start funds are pooled to provide comprehensive services for 
tribal families and children. In other tribes, child care provides 
wraparound services for Head Start in order to accommodate parents' 
working and educational schedules. The Confederated Tribes of Siletz 
Indians of Oregon uses CCDF and Head Start funds to pay a quality 
coordinator who oversees all classrooms at the tribe's child care 
center and ensures that all activities are developmentally appropriate 
and that any training needs of the staff are identified and addressed.
    In addition, some Tribes use CCDF to provide inclusive child care 
and coordinated services for children with disabilities to meet the 
developmental and educational needs of each child. For example, the 
CCDF Early Childhood Program of the Bois Forte Band of Chippewa in 
Minnesota collaborates with the local school's Early Childhood Special 
Education Coordinator to ensure that children with disabilities are 
provided appropriate services such as Individual Education Plans and 
sign language interpreters.
    CCDF acts as a key facilitator of tribal-state early childhood 
partnerships. Indian children have ``dual eligibility'' and are 
eligible to receive either state or tribal CCDF services. Tribes work 
together with states to leverage their CCDF resources and to reduce 
duplication of services.
    Some tribes are also participating or preparing to participate in 
states' Quality Rating and Improvement Systems (QRIS). QRIS is a rating 
system of voluntary, higher standards for child care that provides 
financial incentives and technical assistance to providers as they move 
to higher standards of quality. QRIS also helps families find quality 
care by providing them program ratings. These partnerships with states 
and other federally-funded programs allow tribes to align CCDF with 
other early care and education programs so that more low-income, tribal 
children have access to high quality early education.
Head Start and Early Head Start Programs
    Since 1965, the Office of Head Start (OHS) has provided funding to 
AI/AN tribes. In 1965, OHS funded 43 programs in 14 states. Today there 
are 150 Head Start Tribal programs, including 58 Early Head Start 
programs across 26 states. Tribal programs serve more than 22,000 Head 
Start and Early Head Start children and families and provide 
comprehensive health, education, nutrition, socialization and other 
developmental services. This represents approximately 50 percent of all 
AI/AN children and families served by Head Start and Early Head Start. 
The remaining AI/AN families are served by non-AI/AN Head Start and 
Early Head Start programs. Total AI/AN Tribal program funding for this 
year is over $123 million.
    The size of AI/AN programs varies from the smallest program with 
just 15 children to the largest program with over 2,100 children, 1,300 
of whom speak a Native American language or language other than English 
in their homes.
    Federal staff provides direct oversight and ongoing support to AI/
AN programs. Training and Technical Assistance (T/TA) is also provided 
through three components: Direct T/TA funding to grantees; AI/AN T/TA 
Centers; and, National T/TA Centers.
    Tribal Head Start programs have worked hard to improve quality, 
focus on school readiness and meet the new teacher credential 
requirements mandated by the Improving Head Start for School Readiness 
Act of 2007. Although AI/AN programs face many challenges in meeting 
the new requirements, they have shown steady improvement since 2008 in 
increasing the number of teachers with credentials. Today, 
approximately 70 percent of all preschool teachers have an associate 
degree and approximately 32 percent of those teachers have earned a 
baccalaureate or higher degree.
    Family engagement and community involvement remain strong within 
AI/AN Head Start and Early Head Start programs and just last year over 
24,000 parents and community members served as volunteers. A majority 
of tribal programs have partnerships with their local schools, which 
result in alignment of school readiness goals, inclusive opportunities 
and IDEA services for children with disabilities, and successful 
transition from Head Start to kindergarten.
    Approximately eighty-five percent of children served in AI/AN Head 
Start programs have health insurance and approximately 95 percent have 
a consistent source of health services, many are served through Indian 
Health Services. Again, these figures are much higher than those of the 
general AI/AN population.
    In 2011, ACF issued a final rule for the Head Start program that 
requires grantees to compete, as part of the Designation Renewal 
process, for further funding if they meet one of seven conditions. This 
new regulation, central to the 2007 Head Start reauthorization, is a 
means for continuing to improve quality of grantee services to 
children. In accordance with the Head Start Act, tribal programs are 
not required to compete for funding if they meet one of the seven 
conditions. However, they are required to enter into a 12 month 
government-to-government consultation and receive intensive training 
and technical assistance to improve program quality.
    At the end of the 12 months, OHS must conduct a re-evaluation to 
determine if a tribal program will be required to compete for continued 
funding.
    The Office of Head Start continues to honor and respect our 
government-to-government relationship with all tribes through continued 
consultation and collaboration throughout the Designation Renewal 
process. Thus far, all AI/AN programs that have been required to engage 
in the 12 month consultation and program improvement process and have 
undergone re-evaluation have been successful and will now receive their 
first five-year grant.
Race to the Top--Early Learning Challenge
    HHS partners with the Department of Education to administer the 
Race to the Top--Early Learning Challenge program. This program 
supports 20 states in developing new approaches and systems to raise 
the bar across early learning and child development programs and to 
close the school readiness gap.
    Although states are the eligible entities for the Race to the Top 
Program--Early Learning Challenge, many of the 20 Early Learning 
Challenge grantees are actively implementing the program in AI/AN 
communities. For example, Minnesota is working directly with four 
target communities, one of which is the White Earth Reservation which 
is among Minnesota's poorest communities. Minnesota will fully 
implement its state plan with intensive concentration in these four 
target communities through a multi-pronged approach to preparing 
children for school. Among the activities Minnesota is undertaking with 
the White Earth Reservation are: supporting scholarships to early 
childhood educators that would enhance workforce development in the 
community, providing grant awards to child care providers in the 
community to provide child care health consultation, and training child 
care health consultants through the Minnesota Department of Health. 
Minnesota, as part of its TQRIS expansion efforts, will try to expand 
high-quality and early care and education to difficult-to-reach 
families by conducting focus groups with families in high-need 
communities. Through these focus groups the grantee team will generate 
new outreach tactics that are geared toward specific communities, 
including Native American communities in the state.
Tribal Early Learning Initiative
    Since 2012, ACF has partnered with four tribes on the Tribal Early 
Learning Initiative (TELI). The program supports tribes in their 
efforts to fully coordinate all early learning programs to better meet 
the needs of children and families and raise the quality of services to 
children prenatal through age five. The TELI is a ``learning 
laboratory'' focused on quality improvement and innovation. We work 
with the tribes to identify and address obstacles that could block 
efforts to meet the needs of their populations. Tribal activities 
include creating a single tribal early learning program enrollment form 
to be used by all programs, investing in a data system to allow sharing 
of relevant data across early learning programs, conducting joint 
dental services for children and holding joint professional development 
opportunities across programs. The participating tribes are the:

  <bullet> Choctaw Nation of Oklahoma
  <bullet> White Earth Band of Chippewa of Minnesota
  <bullet> Pueblo of San Felipe of New Mexico
  <bullet> Confederated Salish and Kootenai Tribes of Montana

The Administration for Native Americans
    The Administration on Native Americans (ANA), within ACF, not only 
supports projects that address poverty, but also related projects 
supporting education, including early childhood education. Over the 
last five years ANA has awarded an average of $40.8 million annually in 
time-limited project grants to promote social and economic self-
sufficiency, including projects that have established, strengthened, or 
enhanced early childhood services for children and families.
    In fiscal year 2013, ANA awarded approximately $4.1 million in 
nineteen new language grants combined with $9 million in continuation 
funding for forty existing language grants. ANA language funding 
provides opportunities for Native American communities to assess, plan, 
develop and implement projects to ensure the survival and continuing 
vitality of Native American languages and to promote social unity and 
self-sufficiency. Examples of funded programs include:

  <bullet> The Crow Tribe of Indians for a Native American language 
        nest for pre-school children enrolled in Head Start and 
        reservation-based child care programs.

  <bullet> The Salish Language Acquisition Project to provide language 
        training immersion to school teachers to increase the 
        instructional capacity both in schools and in the community.

  <bullet> The Piegan Institute for instruction in the Blackfeet 
        language to increase parent and community engagement in 
        language learning.

    Recent ANA grants have supported the use of Native American 
language speakers as instructors in Early Head Start and Head Start 
classrooms, the creation of immersion classrooms in Head Start centers, 
the development or adaptation of early childhood curricula that is 
linguistically responsive to Native American early childhood care and 
education settings, and early childhood teacher development through 
partnerships with local tribal colleges or universities or through 
master-apprentice training programs. Because of their flexibility, ANA 
funds have been critical to language program enhancement, quality 
improvement for existing or emergent languages, and Native American 
language instruction.
    Beyond its project funding, approximately $3 million in ANA funding 
provides T/TA designed to help AI/AN communities develop and sustain 
self-determined programs that support Native social and economic 
development strategies and language preservation and maintenance. ANA 
provides T/TA through four regional training and technical assistance 
centers. Between fiscal years 2009 and 2012, ANA conducted 771 Project 
Planning and Development trainings and 1,189 Pre-Application trainings.
    The T/TA program vision is for AI/AN community members to gain the 
skills to help their communities achieve long-range goals. The ANA T/TA 
program approach is based on facilitating connections of Native 
community members with federal partners and advocates. In 2012, the 
regional T/TA centers established Virtual Community Centers (VCCs) as 
on-line spaces for grantees to network, identify partners, and share 
information. The Native Languages VCC supports indigenous and Native 
American language program development and sustainability, as well as 
seeks to foster greater collaboration amongst ANA language program 
grantees and practitioners. ANA T/TA centers also conduct webinars on 
various topics identified by Native communities as needed. In 2012, ANA 
T/TA centers held a total of 34 webinars attended by 629 participants.
Early Head Start/Child Care Partnerships
    Lastly, I would like to thank Congress for appropriating $500 
million to increase the quality of child care for infants and toddlers 
through partnerships with the Early Head Start program. This means that 
at least $15 million will be available to fund partnerships between 
Early Head Start programs and child care centers and family child care 
homes in Tribal communities. We believe that these partnerships will 
have a significant impact in improving access and quality care for AI/
AN infants and toddlers.
    We have already met with representatives of the tribal child care 
community to solicit input for this program and are currently 
developing the details. We are eager to use the lessons learned from 
the TELI project to inform this work.
    As with all of our nation's early learning programs, there is more 
that could be done to provide more high quality, stable programs for 
all of our youngest and most vulnerable citizens. As the President's 
Early Learning Initiative demonstrates, we are committed to learning 
from what we are currently doing to inform our future home visiting, 
child care and Head Start programs and to ensure that they in turn are 
responsive to tribal communities' values, traditions and priorities.
    I very much appreciate the Committee's interest in this issue and 
the opportunity to speak with you today. I look forward to working 
together to continue to improve services to our American Indian and 
Alaskan Native communities. I would be happy to address any questions.

    The Chairman. Thank you for your testimony. I appreciate it 
very much.
    I do have some questions and then we will get to the other 
members of the Committee.
    You mentioned that the models used for home visiting are 
not evidence-based but rather they are considered promising 
practices.
    Ms. Smith. Yes.
    The Chairman. How are you collecting data on these programs 
to see if the results add up?
    Ms. Smith. We have a very strong evaluation component to 
the tribal home visitation program. One of the reasons that we 
don't have evidence-based programs in tribal programs is 
because the programs that are approved for use in the States, 
(I think we have approved 14 of them) have not been validated 
in tribal communities. So we really had to think of a different 
way to do that.
    At the end of probably this year, we will see the first 
one, we think, validated in tribal populations. It was one that 
was specifically designed for Native American families. We are 
conducting an extensive research-based evaluation of the 
different models, and we should have much better data probably 
within the next two years.
    The Chairman. Could you give me an insight on what kinds of 
metrics are being used to develop the results?
    Ms. Smith. We have a number of different metrics that we 
are evaluating. What we have are benchmarks that we have set up 
for the individual programs. The communities have proposed the 
benchmarks and how they are going to meet the various 
requirements of the home visitation program. So, in particular, 
things like is there a reduction in infant mortality? Is there 
an increase in school readiness? The measurements vary, 
depending on what the tribe has selected. But they are all 
designed to fold into the benchmarks for the overall program.
    The Chairman. Okay. Well, I would just say, I would hope 
that you would be tracking the students along the way to see if 
there is--I mean, infant mortality is very, very important--but 
also to see how well they are doing in school compared to kids 
who came from similar economic backgrounds and did not have the 
program.
    Ms. Smith. I will get back to you on that for the record.
    The Chairman. Just so you know, my goal is, I think early 
childhood is a huge bang for the buck. But we have to make sure 
that it is a huge bang for the buck. If we put money in it and 
it doesn't end up doing any good, then we have to change what 
we are doing.
    Ms. Smith. Right.
    The Chairman. So in order to do that, you have to evaluate 
and you have to track and all that good stuff that nobody likes 
to do, but it is a necessary evil of the job.
    Another question. In your testimony you mentioned four 
separate programs at HHS that serve early childhood development 
needs. You have Child Care and Development Fund, you have Early 
Head Start, you have Race to the Top, you have Tribal Early 
Learning Initiative, and there are some other programs, I 
think, including the Administration for Native Americans. Is 
there any coordination between these programs where tribes are 
receiving multiple grants from multiple programs that 
potentially could be serving the same kids?
    Ms. Smith. Absolutely. This is one of the reasons for the 
Tribal Early Learning Initiative. I know Barbara Fabre is going 
to testify after me, and she is one of the sites where we have 
that initiative going on. One of the things that I first did 
when I got into this job was to try and take a look at how we 
could break down the stovepipes and the barriers between child 
care, Head Start, Early Head Start and home visiting. So we 
have funded four communities to look at how they can do that. 
We are using those as learning laboratories for how we will do 
this throughout the Country. I visited a reservation right 
after coming into the job and saw real disparity between the 
Head Start program and the child care program. And it makes no 
sense to me, with two federally-funded programs, to not have 
more continuity in the quality of what is going on.
    So we are very seriously looking at that and working on how 
we can bring these programs into a more blended, braided 
approach. There is no question about that.
    The Chairman. Okay, at this point in time, though, would 
you say the coordination exists, or are you still working on 
coordination?
    Ms. Smith. I would say it exists some places and we are 
working on it in others.
    The Chairman. Okay. Senator Barrasso?
    Senator Barrasso. Thank you very much, Mr. Chairman. I 
appreciate the testimony. Your written testimony mentioned that 
a majority of tribal Head Start programs have a partnership 
with their local schools. These partnerships result in an 
alignment of school readiness goals and a successful transition 
from Head Start to kindergarten. What can be done to encourage 
more partnerships, state-tribal partnerships and even other 
programs to increase early educational opportunities?
    Ms. Smith. I think what one of the reasons that we are 
trying what we are doing with the other initiative is to 
incentivize this to happen and give people the incentive and 
the time to sit down and plan these things together. What I 
have found in the work that we have done with the projects that 
we have now is that there are a lot of misperceptions out there 
about the different funding streams and why they can't work 
together. What we are trying to do is sit down with folks and 
say, no, this isn't a barrier. And if it is, we are willing to 
go back and look at that and fix it. So we have spent a fair 
amount of time looking at different items that people think are 
problems and they really aren't. I think that is one of the 
things we are learning out of the Tribal Early Learning 
Initiative project, is we need to do a better job of being 
clear about the expectations that go along with the different 
funding streams.
    Senator Barrasso. In your written testimony and even some 
of your oral presentation, you noted the family engagement and 
community involvement that remains strong within the Indian 
Early Head Start programs. You said last year over 24,000 
parents and community members served as volunteers for Head 
Start and Early Head Start programs. Last week, I was at home 
in Wyoming and, on the Wind River Reservation, at the Wind 
River School visiting with students. A number of parents were 
there for part of that visit.
    How do you think parents could become more involved in 
their children's early education and development and then stay 
involved? It's kind of what we heard from Senator Heitkamp, 
running to school, walking to school, running away from school. 
This is very telling. We want to get the parents equally 
engaged. Any thoughts you would have on that?
    Ms. Smith. I think this is one of the good news stories 
from the Head Start program, to be honest with you. Anyone who 
has been affiliated with the Head Start program knows that they 
really encourage parent engagement, family engagement. I think 
that number demonstrates that.
    What we really need to do is figure out how we bridge that 
into the public school system. Because it becomes harder in the 
public school system to engage parents in the same way, because 
parents don't have to take their children to the classroom and 
pick them up from the classroom, so they lose that engagement 
with the teachers. It is automatic in the earliest years, 
because the children just simply have to go with parents.
    So I think we need to come up with other strategies. We 
have between the Department of Education and HHS what we call 
an interagency policy board. And we are examining this very 
issue between the two agencies on how do we begin to really 
engage families in the education system, beginning at birth but 
continuing into the public schools. It gets harder as time goes 
on. I understand that. But I think we want to look at that.
    The other thing I would say is that we are interested, 
through our Office of Research at ACF, in looking more intently 
at what makes families engaged at one level and not the other. 
So we are aware of that.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    The Chairman. Senator Heitkamp?
    Senator Heitkamp. I have quite a few questions, a lot of 
which I will submit for the record if that is possible.
    But I want to pick up on this theme of coordination. For 
every one of those programs, there is probably a grant writer 
and then there is probably an auditor, and there is probably 
about 20 percent administrative cost that doesn't go to kids. 
But yet we all turf fight because we have our program and we 
like our program.
    So I understanding trying to find it seamless. But people 
are going to find a way to say, we can't coordinate, unless 
somebody tells them that they have to coordinate or they are 
not going to get any of the money. And a lot of this should be 
directed locally. We should hold people accountable for those 
dollars and those resources, but we have absolutely got to 
engage the entire community, and in fact, the local government, 
which in this case is in many cases tribal government.
    So I want you to do some serious thinking about how we can 
mandate, not just encourage, not just try and take down 
barriers, but require that there be a single focus with 
appropriate resources. And that focus should be the education 
of kids.
    But I want to tell you, I had kind of a little wake-up call 
yesterday at my office. I was visiting with some grade school 
principals, one of which was in Mandan, my home town and the 
other one was in Bismarck. I asked them what the big issue was 
for them, and I thought it was going to be early childhood 
education, thought it was going to be No Child Left Behind. And 
both of them said, it is mental health. It is mental health 
problems within the community that they are serving. And they 
both serve populations, about a third of their kids are Native 
American kids, transitioning from spot to spot to spot. That is 
another whole issue, about the lack of consistency in education 
by moving around.
    But I want to know what you are seeing in the work that you 
do and your agency does in mental health, and what you think 
can be done to address some of those concerns. I want you to 
focus in particular on what I think might be a problem, which 
is post-traumatic stress as a result of witnessing family 
violence.
    Ms. Smith. And I totally understand that, and that would 
not surprise me as an answer to that question. Because we hear 
that even in the earliest years. When you ask teachers in 
classrooms what is the most challenging thing they have to deal 
with, you can call it whatever you want to, behavior, social-
emotional development, mental health issues, but one way or 
another we have issues surrounding that whole area. So I like 
to call it social-emotional development of our children.
    I tend to think that it gets back to parents and parenting. 
We are going to have to pay more attention to how we help 
parents understand basic child development. I think some of 
what goes wrong in communities, or with parents in some of the 
families is inappropriate expectations.
    Senator Heitkamp. And I get that. But let me tell you the 
story. Two little boys on the school bus beat up two little 
girls on the school bus. And when they get to the principal's 
office, they ask them why. They said because they want to see 
their dad, because last night their dad beat up their mom and 
he is in jail. So you can talk about parenting, but we have an 
immediate crisis situation that we need to deal with. I am 
wondering how, I mean, that is a long-term solution. But how do 
we deal with the emergency of that issue?
    Ms. Smith. I think we need to get better resources to our 
schools and to our early childhood providers. We know that we 
have a lack of trained people in this area available to these 
programs. There is no question about that. The whole area of 
mental health is front and center in so many ways. But we just 
lack the resources and the trained people, the skilled people 
for the ages of the children and the issues that we are dealing 
with.
    Senator Heitkamp. And I agree. So what are you doing to 
kind of look long-term at fixing that skills gap and helping 
those schools?
    Ms. Smith. My role is not with the schools necessarily. It 
is with the preschool component. But we are looking at that, 
and we are working with other areas of the Department of Health 
and Human Services. We have been working with SAHMSA, which 
does have the funding for social-emotional mental health 
issues, and HRSA and other colleagues throughout the Department 
of Health and Human Services to take this issue on.
    I wouldn't sit here and say we have answers yet. Because it 
is very complicated. But we started this work about six months 
ago, and we have a very solid group, interagency group of 
people taking a look at it. Centers for Disease Control are 
involved in it with us, the Office of Special Education over at 
the Department of Education.
    Senator Heitkamp. Mr. Chairman, if I can ask, as you work 
through that, if you can make those reports available to us and 
that progress in addressing that issue available.
    The Chairman. Thank you, Senator Heitkamp. I am going to 
ask a few more questions, and if you guys have a few more, you 
certainly can. I think we are going to have a little time, we 
have to be out of here by 4:00.
    I have a couple of questions, Linda, and I would just say 
this before I ask these questions. Senator Heitkamp's questions 
are good, and I think it is important that the people in the 
Department start thinking about solutions to problems and how 
you can best address them. We know we have issues out there 
around mental health, we just had testimony at the last hearing 
we had, one in four kids are coming out with the same PTSD that 
soldiers are coming back with, same rate.
    So we have to think about solutions to the problems, so 
that we can visit about them at this level and move forward. We 
will help you in that.
    We will hear in the upcoming testimony of the next panel 
about the struggles that some tribal programs are having in 
meeting class certification, particularly due to a scoring 
system that does not take into account differences in cultural 
communication styles. Is this an issue you are aware of and if 
so, what is ACF doing about it?
    Ms. Smith. This is actually a very interesting issue that 
we have had. I am aware of it and we have had a lot of 
conversations about it.
    We were talking about this just yesterday afternoon. I 
think you are talking about the class rating scale for the 
recompetition of Head Start.
    The Chairman. That is correct.
    Ms. Smith. The highest scoring programs in Head Start 
across the Country, not just in Indian Country, are in the 
Native American program. So I think this is one of those areas 
where there is a perception that it is a problem and it is 
probably not as real as it is thought to be. The highest score 
period and the only perfect score in a program is in the Native 
American program.
    And it is not to say that they are all that way, but for 
the most part, the class is doing what it is intended to do.
    The Chairman. Good enough.
    Can you describe the partnership between home visiting 
models, Early Head Start, and Head Start, very briefly? Mainly 
I want to know, is there any duplication in those services.
    Ms. Smith. We are trying to make sure that there isn't. 
Now, one of the things that does get a little confusing is 
there is an Early Head Start home visitation model. And that is 
an approved model by the Department for use with home 
visitation funds. When that is the case, it is a program that 
is not duplicative of Head Start or Early Head Start, it is 
just a model that the program has chosen to use. Home visiting 
is a strength of the Head Start program and has been for a long 
time. So the model is selected fairly frequently, I think it is 
the third most used of the programs out there. So it isn't a 
duplication, but it may sound like it is.
    The Chairman. I encourage partnerships in innovative use of 
funding. You talk about it in your testimony, the immersion 
program at Rocky Boy. I have heard from many tribal communities 
that one of the biggest areas that they need access to is 
quality health care. There are simply not enough slots around 
for the kids that need the child care, and when I said health 
care, I mean quality child care. There are not enough slots for 
the demand.
    Is ACF doing anything to address the child care shortage, 
quality child care, I should say?
    Ms. Smith. Well, we have, as you may know, rewritten the 
Child Care regulation, which we took public comments on last 
year. We have now gone through all the comments and will 
publish a final rule some time this summer. Almost every 
modification done to the regulation has been about quality, 
about building better health and safety requirements into the 
program, about basic training, which was not there, about 
continuity of care for children, so that they can stay in the 
program and not be jerked around just randomly. We are 
establishing a minimum time that a child could stay before 
having their eligibility redetermined.
    We have really taken that seriously. The whole new 
regulation looks at the quality issue. We are very concerned 
about it.
    The Chairman. I got you. I heard you talk about quality 
health care, and I think it is very, very important. But what 
about the shortage of health care? I am sorry, I have health 
care on the mind, shortage of quality child care. What about 
the shortage?
    Ms. Smith. Well, sir, I think there is a shortage of 
quality child care across this Country. I would open with that. 
And that isn't to say it isn't a crisis in Native America 
communities, because it is.
    We are limited by the law in terms of how much money we are 
allowed to put into the child care program. That is 2 percent 
of the total block grant. I think the panel that follows me may 
shed some light on that for you.
    But we are aware of the problem. I think we wish we could 
do more.
    The Chairman. Senator Heitkamp, do you have any questions?
    Senator Heitkamp. No, thank you, Mr. Chairman.
    The Chairman. All right, well, thank you very much, Linda. 
We appreciate your testimony. While we are setting up the next 
panel, I will just tell you, while you were talking, there were 
folks behind you shaking their heads. I think there are a lot 
of folk who will help on the issues we talked about today with 
some consultation. Thank you.
    As the next panel comes up, I will make a brief 
introduction of who is on that panel. They can further flesh 
out who they are once they start speaking.
    Mr. Danny Wells is the Executive Officer for the Division 
of Education in the Chickasaw Nation in Ada, Oklahoma. Ms. 
Barbara Fabre is Chairperson of the National Indian Child Care 
Association and Director of Child Care/Early Childhood Program, 
White Earth Ojibwe Nation, White Earth, Minnesota. Ms. 
Jacquelyn Power is Superintendent/Principal of Blackwater 
Community School in Coolidge, Arizona. And Dr. E. Jane Costello 
is the Associate Director for Research, Center for Child and 
Family Policy, Duke University, Durham, North Carolina.
    I appreciate all of your testimony that you have written 
in. We will give you five minutes. I am going to hold you 
pretty close to it, because I want to save a little time for 
questions. So if you will keep it close, your entire written 
testimony will be a part of the record. We will start out in an 
inappropriate fashion, we will let the guy go first. Mr. Danny 
Wells, you can go first.
    [Laughter.]

   STATEMENT OF DANNY WELLS, EXECUTIVE OFFICER, DIVISION OF 
                  EDUCATION, CHICKASAW NATION

    Mr. Wells. My name is Danny Wells. I am a Chickasaw tribal 
citizen, serve as the Executive Officer of the Division of 
Education, representing the Chickasaw Nation.
    Thank you, Mr. Chairman, for allowing us the opportunity, 
and the Committee for allowing us the opportunity to provide 
best practices and also to address some challenges with regard 
to our early childhood development program.
    One of the things I think we have discovered is that we all 
believe and we all know that an effective early childhood 
program is the foundation for academic success. To get an early 
start, to get a big start, to get a good start is key to 
success. The Chickasaw Nation early childhood is comprised of 
two parts, Child Care and Head Start. Basically what we do is 
we have those two programs that are involved in our early 
childhood program. Within those, we have over 400 children that 
we serve in Child Care, 200 of which are served in our Early 
Childhood Development facility. We also serve 271 Head Start 
children at four different facilities.
    What we find is that with a partnership between the two 
that they engage one another and it is a more seamless 
transition from one to the other. One of the things we want to 
make sure that we pass on is school readiness is a key focus, 
at least based on Head Start. From our perspective, it has 
always been a focus for us. School readiness has always been 
key for us, it has always been a focus for us. It is always 
something that has been of the upmost importance.
    So when it was identified that that was a key, we already 
knew that. So what we did was basically, we simply tried to put 
it in a written format so that we could share that with others 
and when we were asked to share that with the Early Head Start, 
we had that ability. But again, that was already in place. As a 
matter of fact, most of our staff are former public school 
teachers, myself included.
    And so when we start looking at different things that we 
can do, and we start looking at facts, what we find and 
identify that is key for us is to identify key staff. 
Certified, qualified teachers, that is key for us. And that is 
most important. So we focus on that.
    I will also share with you that about 70 percent of our 
Head Start staff are Native. About 75 to 80 percent, probably 
closer to 80 percent, of our Child Care are Native as well.
    Along with what we think is a strength becomes a challenge. 
It is really difficult to find qualified, certified teachers in 
Indian Country, particularly in our rural areas. The law 
requires that, particularly in Head Start. We do it in Child 
Care because we think it is the right thing to do. We felt like 
that makes us have a more quality program. But it gets 
difficult, particularly early childhood. Our focus is typically 
on early childhood and elementary education, those are the two 
groups that we typically look at. But to go a little step 
further, we require our elementary ed teachers to go ahead and 
get certification in early childhood, because we want to be a 
highly qualified program.
    So we start looking at things, you mentioned early 
intervention, Linda, and that is one of the things I want to 
make sure that we, that is one of the things that is key to us. 
Behavioral issues have become a bigger and bigger problem, and 
become bigger all the time. So we have a staff of there people 
that address our Child Care and Head Start that upon a 
teacher's referral, they follow up on those and they try to 
ascertain what the problem is, what things can be done. And 
then we put a plan of action in place, so we can head off those 
things before they get along further in public school. Those 
things are addressed. And we start early.
    And by the way, our day care, or what we call our child 
care, is much more than a babysitting service or a day care 
service. We start with our infants, teaching them sign language 
so they can communicate. As they reach one or two years old, we 
are teaching high reach curriculum. When they reach three and 
four years, we go to Frog Street Press. And our Head Start 
program uses Creative Curriculum and Frog Street Press. So for 
us, it is all about academics. It is all about social 
relations, too, but for us, academics is huge.
    So what we would like the Committee to know is, there are a 
lot of us out there doing the right thing for the right 
reasons. We are trying to prepare our children to be 
productive, to be successful. That is our intent, that is what 
we are always looking at, to try to do the best that we can.
    In all the classrooms, we are fortunate that we have smart 
boards. Great teaching tool. They are going to see those things 
as they progress into public school and on to college. So that 
is something they are going to be accustomed to.
    Some things that we have that perhaps are unique, our Child 
Care program is also in charge of an after school program, so 
that our children that are in public school have a place to go. 
We also do after school for our Head Start. Our Head Start 
programs are part-day programs. So they finish at 1:00 o'clock, 
so they transition into our Child Care, so that they will have 
not just babysitting service, but they will have academics. So 
for us it is, again, all about preparing our children.
    The Chairman. Time flies when you are having fun. Your five 
is up, can you wrap up, please?
    Mr. Wells. Absolutely. Basically I do want to share with 
you, the CDBG grant is one of the things I was supposed to 
mention, that because of that, we built quality, I invite all 
of you to come and see our child care facility, it is 
extraordinary. We built a child care facility with that money, 
we also built an addition to our Ardmore Center. So we are 
thankful for the fact that we received those grants. Thank you 
so much.
    [The prepared statement of Mr. Wells follows:]

   Prepared Statement of Danny Wells, Executive Officer, Division of 
                      Education, Chickasaw Nation
    Good afternoon, my name is Danny Wells, Executive Officer for the 
Division of Education, representing the Chickasaw Nation. Thank you 
Senator Tester and the Committee for allowing me this opportunity to 
provide ``best practices'' and ``challenges'' in regard to education 
and particularly in Early Childhood Development.
    The Chickasaw Nation is a federally recognized tribe located in 
south-central Oklahoma and encompasses all or parts of 13 counties. The 
Chickasaw Nation division of education serves approximately 14, 200 
students per year from across the United States. The majority of our 
Chickasaw students in Oklahoma attend public schools. Currently there 
are an estimated 59,474 students enrolled in the public school 
districts within the tribe's jurisdiction; 14,801 are Native American.
    The Chickasaw Nation constitution provides the Governor with broad 
discretion to develop and guide the division of education. The division 
of education is comprised of 210 employees and 5 departments: 
childcare, head start/early childhood; education services; office of 
supportive programs and vocational rehabilitation. Our goal at the 
Chickasaw Nation is to develop programs and services that enhance the 
overall quality of life of Chickasaw people. Our services and programs 
are not limited to Chickasaw citizens. We have a wide range of services 
that benefit other Native Americans and non-Natives as well. Many of 
our programs rely heavily on outside partners in order to address the 
needs of our people and local communities. We realize that education 
provides a stepping stone for people to become productive citizens. For 
that reason, we embrace the idea of becoming better partners with our 
local schools to improve the education for all students.
    Most people agree that providing our children with a solid 
foundation is one of the most rewarding investments we can make. We are 
increasingly learning just how early in a child's life this education 
should start if we want to best prepare our children for future 
successes in all areas of life.
    Mounting studies demonstrate that by age six, a child's capacity to 
learn is largely formed. Seemingly unremarkable childhood play teaches 
communication, thinking, and problem solving skills. A high level of 
stimulation with books and talk can mean that a child will possess a 
20,000-word vocabulary by age five rather than 5,000 words, the average 
for children who are not often engaged with language. This early gap 
has long-term repercussions for a child's cognitive development. The 
gap between the child who is stimulated at an early age and the one who 
is not is likely to widen throughout the school years. Staggering 
evidence supports the case for broad access to early childhood 
programs:

  <bullet> Children who participate in quality programs require less 
        special and remedial education, the cost of which is growing 
        twice as fast as regular education, and demonstrate higher 
        achievement in math and reading through age 21;

  <bullet> As teenagers, these children have lower pregnancy rates, 
        lower delinquency rates, higher test scores, and higher high 
        school graduation rates;

  <bullet> Adults who received early education suffer lower rates of 
        unemployment and commit fewer crimes.

    Early childhood, which is the period in a child's life from birth 
through age five, is a critical time for children to develop the 
physical, emotional, social, and cognitive skills they will need for 
the rest of their lives.
    A child's cognitive development during early childhood, which 
includes building skills such as pre-reading, language, vocabulary, and 
numeracy, begins from the moment a child is born. Developmental 
scientists have found that the brain acquires a tremendous amount of 
information about language in the first year of life even before 
infants can speak. By the time babies utter or understand their first 
words, they know which particular sounds their language uses, what 
sounds can be combined to create words, and the tempo and rhythm of 
words and phrases.
    There is a strong connection between the development a child 
undergoes early in life and the level of success that the child will 
experience later in life. For example, infants who are better at 
distinguishing the building blocks of speech at six months are better 
at other more complex language skills at two and three years of age and 
better at acquiring the skills for learning to read at four and five 
years of age. Not surprisingly, a child's knowledge of the alphabet in 
kindergarten is one of the most significant predictors of what that 
child's tenth grade reading ability will be.
    When young children are provided an environment rich in language 
and literacy interactions and full of opportunities to listen to and 
use language constantly, they can begin to acquire the essential 
building blocks for learning how to read. A child who enters school 
without these skills runs a significant risk of starting behind and 
staying behind.
    Intended primarily for preschoolers from low-income families, head 
start's mission is to promote school readiness to enable each child to 
develop to his or her fullest potential. Through head start and child 
care, children receive comprehensive health services, including 
immunizations, physical and dental exams and treatment, and nutritional 
services. The head start and child care program engages parents in 
their children's learning and helps them make progress toward their 
educational and employment goals. National research is clear: the 
earlier children are exposed to a rich learning environment, the better 
their chances of succeeding in school.
Best Practices
    The Chickasaw Nation Early Childhood development program consists 
of the department of child care and the department of head start which 
serve children from birth to five years of age. Both departments focus 
on school readiness and preparation and family involvement in school 
readiness. The staff understands and promotes the importance of 
preparing children to be ready for school and the significance of 
parent and family engagement activities which are grounded in positive, 
ongoing and goal-oriented relationships with families. The Head Start 
Parent, Family and Community Engagement Framework serves as a guide to 
prepare our children for school and sustain development and learning 
gains through third grade. The Head Start Child Development and Early 
Learning Framework is used to identify goals and measure progress 
toward school readiness.
    The Chickasaw Nation child care program serves over 400 children 
and the head start program is funded for 256 children and serves 271 
children in a center-based program option. The child care program 
provides 17 classrooms in two level child care facility and the head 
start program provides 14 classrooms in four centers. All four head 
start centers operate as part-day programs and the child care program 
is a full-day program. Through collaboration with the Chickasaw Nation 
Child Care program, child care services are available from 1:00 p.m. 
until 5:30 p.m. at Ada, Ardmore and Tishomingo. Through collaboration 
with one public school, classroom instruction has been extended until 
3:00 p.m. at Sulphur. The Ada and Ardmore head start centers provide 
summer school to children and families during the month of June.
    The child care Early Development Center is open and available to 
children year round. In addition to the Early Childhood Development 
center the child care program provides an after school program to 
school age children as wells as a summer school age program for 
students up to 12 years of age.
    The Chickasaw Nation Cultural Resources Department provides a 
Chickasaw language program for all centers. Language preservation 
specialists visits each classroom throughout the year to offer lessons 
which includes Chickasaw words for numbers, colors, animals, body 
parts, commands and traditional greetings. The lessons also include 
proper pronunciation, stories, poems, activities and songs. 
Additionally, the Chickasaw language is used every morning in the 
classroom during circle time. The education component is met through a 
variety of curricula. A comprehensive approach to each child's 
individual educational needs is met by using the High Reach Curriculum 
in the child care facility and the head start uses the Creative 
Curriculum and the Frog Street Press curriculum. Each child is 
introduced to a variety of languages including Chickasaw, American Sign 
Language, Spanish and English. Infants are taught sign language to 
increase their level of communication. Pictures and repetitious use of 
words and phrases help the children to grasp the languages. The head 
start program has participated in the Reading is Fundamental program 
the past ten years and the child care program utilizes the Dolly Parton 
book program. Many child and family literacy activities are conducted 
throughout the year as well as three book distributions. Lending 
libraries are available at each center to support family literacy.
    Each child is screened at enrollment, using the Brigance screening 
tool to determine the child's beginning level of performance. The 
Teaching Strategies Gold ongoing assessment is performed with each 
child to develop the best education program for his/her individual 
educational needs.
    Interactive SMARTBoards have been installed in all classrooms in 
all centers. Teachers have been assigned laptops on which they plan and 
program their lessons to present on the SMARTBoards. The teachers use 
the smart boards daily to engage and motivate the children. Share point 
is utilized so teachers can share educational websites. Head start and 
child care teachers have Bachelor degrees in Early Childhood or 
Elementary Education or are in the process of completing a degree.
    The Office of Supportive programs administers the JOM program, the 
STEP program, Tutoring Reimbursement program, Science, Technology and 
Math (STM) program and the Chickasaw Honor Club program. The Chickasaw 
Nation was fortunate to be awarded the State Tribal Education 
Partnership (STEP) grant which is a consortium with the Cheyenne/
Arapaho tribe. The STEP program is designed to assist the Oklahoma 
State Department of Education in monitoring and reporting on the 
Elementary and Secondary Education Act (ESEA) formula grant programs. 
In addition, the program is working in conjunction with four school 
systems to provide support and assistance for American Indian students 
in an effort to help them to be more successful in school. Full-time 
education specialists provide ``wrap around'' services for students and 
their families and are part of the ``front line'' in targeting students 
who are in need of assistance. The specialists help facilitate 
opportunities for gifted and talented students, identify students who 
are at risk of dropping out of school, provide assistance for those 
with academic issues and work toward improving parent/guardian 
relationships with the schools. The specialists also are in a position 
to help build cultural awareness for the school, students and families.
    The Student Tutoring Reimbursement program is a reimbursement 
program for school age Chickasaw students in grades 1-12 in the areas 
of math, reading, writing and science. Students must be referred by a 
teacher or counselor and have a documented IEP or be making a ``C'' or 
below to be eligible.
    The STM program was implemented to promote and increase interest in 
the areas of science, technology and math.

  <bullet> The program is offered to four age groups of FIRST robotics 
        levels: 6-8 years--Junior FIRST LEGO League (Jr. FLL), 9-14 
        years--FIRST LEGO League (FLL), 15-18 years--FIRST Tech 
        Challenge (FTC) and FIRST Robotics Competition (FRC). The FTC 
        level is designed for students that have no previous experience 
        and the FRC level is for students that have at least one year 
        of experience. These four programs provide students on 
        opportunity to be involved in numerous competitions.

  <bullet> The Chickasaw Nation Aviation Space Academy (CNASA) program 
        is a week long summer day camp for students in grades 5-12 who 
        have an interest in space aeronautical engineering.

  <bullet> Space Camp is an all-inclusive week-long summer camp 
        sponsored at the U.S. Space and Rocket Center in Huntsville, 
        Alabama and is available to Chickasaw students 9-18.

  <bullet> East Central University Robotics Camp is a week-long summer 
        camp sponsored by East Central University. The STM program 
        sponsors 10 Chickasaw students each year and the STM staff 
        assists with the camp.

  <bullet> The Summer Science School for Day Care is an hour long 
        hands-on learning opportunity each week for youth enrolled in 
        the summer day care program.

  <bullet> The STM Learning Academy provides short-term classes in the 
        summer for students interested in robotics. Examples of classes 
        offered include: basic electrical and mechanical engineering, 
        CADD design, LABVIEW programming, multi-media and photography.

    The Chickasaw Honor Club is an incentive program which is comprised 
of three components and serves Chickasaw students in grades 2-12. Gift 
cards are awarded to students who excel in academics, attendance and 
above and beyond in areas such as academics, athletics, band/music, and 
citizenship.
    The Education Services administers the Higher Education program, 
the Career Technology program, Native Explorers, Junior Native 
Explorers, the Summer Science and Medicine Expedition, Hinoshi' 
Himitta' (New Path) and the Chickasaw Nation Summer Leadership Academy.

  <bullet> The Native Explorers program provides educational programs 
        and promotes partnerships that increases the number of Native 
        Americans in science and math. The main goal is to promote and 
        introduce STEM fields in order to increase the number of Native 
        American students enrolled in STEM majors. The Native Explorers 
        program partners with scientists and educators at the OSU-
        Center for Health Sciences in Tulsa, OK; the Sam Noble Museum 
        of Natural History in Norman, OK and the Chickasaw Nation in an 
        effort to broaden its range of impact and further increase the 
        number of Native Americans who study the sciences and/or 
        medicine.

  <bullet> The Junior Native Explorers offers opportunities for 
        students to participate in activities which include earth 
        science, natural science and biomedical science and is open to 
        Chickasaw students between the ages of 6-18.

  <bullet> The Summer Science and Medicine Expedition provides the 
        opportunities for five college students to participate in a two 
        week expedition which includes an archeological dig.

  <bullet> The Hinoshi' Himitta'' (New Path) is a program designed to 
        help Chickasaw junior and senior high school students 
        transition into post-secondary education programs. The focus of 
        this program is to encourage first generation students to 
        attend post-secondary education.

  <bullet> The Chickasaw Summer Leadership Academy is a two week 
        academy in partnership with Southeastern State University. The 
        purpose of this academy is to identify first generation 
        students and provide a college experience as they live on 
        campus during each week and attend classes designed to assist 
        them with transition into post-secondary education.

Acknowledgments
    The Chickasaw Nation appreciates being a recipient of some of the 
Indian Community Development Block grants (ICDBG) the past few years. 
These grants have enabled us to build a phenomenal Early Childhood 
Development center, an STM building to house our science, technology 
and math efforts, a Sick Child Care center to serve mildly ill children 
and an expansion at one of our head start centers which enabled us to 
add two classrooms and a cafeteria. We are also about to begin 
construction on a new Early Childhood Development center in Ardmore, OK 
thanks to being awarded another ICDBG.
Challenges
Johnson O'Malley
    The Chickasaw Nation serves as a contractor for the Johnson 
O'Malley (JOM) program for 52 public schools within the Chickasaw 
Nation boundaries. This funding provides supplemental educational 
opportunities for approximately 8,200 Native American students in our 
area assisting with school supplies, educational materials, tutoring 
and cultural education. Each school has a JOM coordinator and parent 
committee that oversees the use of the funds.
    In 1994 the Johnson O'Malley student count was frozen and the 
funding has not increased since 1995. Currently over 90 percent of 
Native American students are in public schools yet the funding has 
remained the same, resulting in fewer services for the students. 
Additionally when the student count was frozen, the JOM funds were 
placed under the Tribal Priority Allocation (TPA) category of funding 
and the JOM office at the Bureau of Indian Affairs (BIA) was closed. 
There is no contact person for the JOM program to maintain and 
administer the program. There has also been a move by the Bureau of 
Indian Education (BIE) to eliminate the JOM program so they can use the 
funds for other uses. The BIE's priority is students located within BIE 
funded schools. As mentioned earlier, most Native American students 
attend public schools. The Native students in public schools do not 
have a voice in the BIE or BIA to advocate for their academic success. 
The best advocate for Native students is the tribes.
Tribal Interaction with Schools
    Tribal interaction with schools could be improved by allowing 
Tribal Education Agencies (TEA) access to students and educational data 
of students enrolled in public schools within the tribal boundaries. 
These TEAs could assign representatives to the schools to have direct 
contact with the students and could assist them with tutoring and help 
address attendance issues with an emphasis on access to tribal 
programs. Connecting students and families to tribal programs gives 
much needed access to family counseling, behavioral health 
professionals, mentoring programs, cultural and language programs to 
name a few. There are too many issues in public schools to expect the 
teachers or administrative staff to be aware of tribal programs, which 
results in tribal students being disconnected to services that could 
help them perform better academically and socially. Tribal 
representatives should have access to student records (attendance, 
grades, etc.) so that tribes can become partners with the schools to 
improve the tribal student's education or prevent at-risk students from 
failing or dropping out of school.
    The curricula for public schools are determined by committees 
appointed at the district and state level. Unfortunately, in states 
with populations of Native American students, there are times when 
schools include offensive material into curricula without being aware 
of the nature of the offense. For example, in Oklahoma, public schools 
often conduct activities portraying the ``Oklahoma Land Run'' without 
realizing the negative connotation of the act to Native American 
students. Most teachers and administrators are not aware of the 
negative impact they have on the students and their families. There are 
better ways to study historical periods of statehood or other events, 
and with a tribal representative on the curricula committee, it could 
be accomplished in a manner that is not offensive.
Accountability
    Schools could be held more accountable for the education of Native 
American students if funding for Indian Education programs such Title 
VII and Impact Aid were administered by the Tribal Education Agencies 
in the area. This could be done in a manner similar to the JOM 
contracts. Currently, schools are only required to have public hearings 
or oversight committees appointed by the school administration. Tribes 
are often not given adequate notification for the hearings and may not 
be asked to participate at all. As a result the funds are often spent 
for educational services for the entire school population, not the 
Native American students for which the funds are allocated. If the TEA 
had oversight, it could ensure proper expenditures. For years tribes 
have been asking local schools how the Title VII and Impact Aid funds 
are spent. Schools are reluctant to share the information with the 
tribes but when they do answer their typical response is ``the funds go 
into one pool and cannot be tracked;'' they cannot tell us specifically 
if the funds were spent on Native students. Realistically we know the 
funds are federal dollars and must be reported to the funding agency so 
there is some type of reporting mechanism involved.
Culture and Native Language
    Over the past decades, tribes have made great advances in capturing 
and preserving their culture, history and languages. Culture, history 
and language make us who we are and help us to understand our struggles 
and accomplishments. It is unfortunate that the public school textbooks 
have not preserved this information or portrayed accurate Native 
American history to students. History and culture validates people's 
existence. Native students look to their history and culture to 
validate who they are and why they are here. Working with public 
schools, tribes can provide accurate and relevant history and culture 
so all students can benefit from the information and presentation. 
Tribes can be a resource for language, cultural or history curricula, 
and it can be designed so that it will abide by State's Common CORE 
Standards.
    The No Child Left Behind (NCLB) Act requires a teacher be 
considered ``highly qualified'' in order to teach a language for school 
credit. Most fluent tribal speakers are elders and do not have the 
degree or certification to become ``highly qualified.'' Those same 
speakers are being lost at an alarming rate due to their age. Native 
languages are highly endangered and action needs to be taken before 
they are lost. The tribes are the best judge to say who is an expert 
speaker of their language. NCLB should include language which allows 
tribes to certify their language speakers according to standards the 
tribe determines. Additionally, Native language should be certified as 
a world language credit so that it is accredited for purposes of 
graduation. Currently, Native language is counted as electives due to 
the challenges of teacher certification.
    In conclusion, we applaud the efforts of this committee to address 
issues related to Native students and education. Working together, we 
believe the impact of this effort will not only benefit Native American 
students but will also positively impact their families, communities, 
and all students in public schools!

    The Chairman. I appreciate your testimony. There will be 
some questions. Thank you, Mr. Wells.
    Ms. Fabre?

 STATEMENT OF BARBARA FABRE, CHAIRWOMAN, NATIONAL INDIAN CHILD 
CARE ASSOCIATION; DIRECTOR, CHILD CARE/EARLY CHILDHOOD PROGRAM, 
                       WHITE EARTH NATION

    Ms. Fabre. Mr. Chairman, Vice Chair and members of the 
Committee, my name is Barb Fabre, and I am a tribal member from 
the White Earth Nation Anishinaabe Tribe. I have worked for the 
tribe for over 20 years and with CCDBG for the last 20 years. 
As you are aware, the early years in a child's life makes the 
most difference in the future and defines what kind of human 
being they will become and what kind of citizen they will be. 
These early years are especially important with children from 
low income communities and tribal communities in particular.
    I would like to take this opportunity to introduce you to 
Hayden. Hayden is a 10-month old who is in our child care 
learning center. Hayden's dad is a maintenance worker and his 
mom recently enrolled in college. Their annual income is 
$26,000. They can't afford their own home, so they are living 
with their relatives. The child care bill alone for Hayden is 
$4,200 per year. But thanks to the tribal setaside for CCDBG, 
their child care cost is supplemented with child care 
assistance, and now Hayden's dad has been able to also enroll 
in college while he still works.
    Young children from different socioeconomic groups come to 
school with dramatically different vocabularies. Low income 
children enter kindergarten with a 3,000 word vocabulary. But 
children from middle class families enter with a 20,000 word 
vocabulary. The achievement gap starts there, especially for 
our Native children. As you know, tribal communities are one of 
those socioeconomic groups.
    Preparing for my visit here today, I heard from tribal 
communities all over Indian Country. They told me about their 
successes, the early intervention, school readiness initiatives 
they are doing, the language and vocabulary, parent 
conferences, social-emotional skill building. And to Senator 
Heitkamp's comment, we are dealing with behaviors in child 
care. We have limited resources, we don't have staff, we don't 
have coordinators, health coordinators. Children who have 
adverse experiences of prolonged toxic stress associated with 
poverty, child abuse and serious neglect, parental substance 
abuse, neighborhood violence or maternal depression also need 
interventions to build the foundational skills necessary to 
reach their full potential.
    As I heard from the tribes, I also heard about their 
struggles. They have had to downsize staff, long waiting lists, 
and as you will read in my testimony, many more tribes endure 
long waiting lists. The lack of child care facilities, and like 
Mr. Wells, child care is not babysitting. Tribal child care is 
definitely not babysitting. In any given community, Head Start 
serves about one-third of the community's children. About 
another third is in some form of child care, while another 
third is not in anything.
    So we take that very seriously. We go out into the 
community and we provide early childhood services. Our tribal 
child care has recently added early childhood to our name, 
because we are the early childhood program for our community. 
We are doing parent engagement, parent training, community 
training.
    As you will read in my testimony, you will see that over 
the last 17 years, approximately 25 new CCDBG grantees, which 
is a good thing. Right now there are 260 grantees. It is good 
that they are getting CCDBG, but that just also means that the 
pie is not getting any bigger, we are just slicing it into 
smaller and smaller sections. So that is the struggle with 
tribal CCDF in Indian Country. We are faced with a lot of 
issues, but we are also faced with funding extremes.
    While the concern is avoiding duplication, it really comes 
back to lack of funding and resources. We too believe in a 
continuum of learning from birth on up. Thank you.
    [The prepared statement of Ms. Fabre follows:]

Prepared Statement of Barbara Fabre, Chairwoman, National Indian Child 
 Care Association; Director, Child Care/Early Childhood Program, White 
                              Earth Nation
    Mr. Chairman, members of the Committee, I am Barbara Fabre, a 
tribal member from the White Earth Nation in Minnesota, the largest of 
11 tribes in Minnesota. I am the Director of White Earth Child Care/
Early Childhood Program and Chairwoman of the National Indian Child 
Care Association, that is representative of tribal child care programs 
throughout Indian Country. It is an honor to be here today and I am 
proud to be here to represent tribal child care. I applaud the 
Committee on Indian Affairs for its decision to include tribal child 
care in the oversight hearing on early childhood development.
    The Child Care and Development Block Grant (CCDBG) Act of 1990, 
(CCDBG Final Rule 45CFR 98 and 99, published August 1992), also known 
as the Child Care and Development Fund (CCDF), is to increase the 
availability, affordability and quality of child care services for 
children (families and communities). This federal funding is for 
States, Territories, Indian Tribes, and tribal organizations in order 
to: (1) provide low-income families with the financial resources to 
find and afford quality child care for their children; (2) enhance the 
quality and increase the supply of child care for all families, 
including those who receive no direct assistance under the CCDF; (3) 
provide parents with a broad range of option in addressing their child 
care needs; (4) strengthen the role of the family; (5) improve the 
quality of, and coordination among, child care programs and early 
childhood development programs; and (6) increase the availability of 
early childhood development and before-and-after school care services. 
While a 1994 mandate, reaffirms a government-to-government relationship 
between Tribes and the Federal Government and directing agencies to 
design solutions and tailor Federal programs, in appropriate 
circumstances, to address specific or unique needs of tribal 
communities, tribal child care programs are designed locally and able 
to meet the unique needs of tribal communities.
    The National Indian Child Care Association is the recognized 
representative body of the Tribal Child Care and Development Block 
Grant grantees. The Association was developed in 1993 to provide 
information, support, coordination, and advocacy for Tribal child care. 
Two hundred sixty Tribes and Tribal organizations received Child Care 
and Development Block Grant in FY 2013 (259 Tribes and Tribal 
organizations (including 20 consortia), encompassing approximately 520 
Federally-Recognized Tribes; and 1 Native Hawaiian grantee. (35 Tribes 
have consolidated their CCDF funding with employment, training and 
related services into a P.L. 102-477 Plan. There were 30,598 children 
serviced by Tribal CCDF in FY 2011 (this number reflects only the 
number of children who received CCDBG child care assistance (subsidy), 
and does not take into consideration the thousands of children being 
served in tribally licensed centers or tribally licensed child care 
providers and other quality initiatives/services that Tribal child care 
programs do beyond the ACF700 Report aggregate data form). The Child 
Care and Development Block Grant is the single largest program 
authorized under the Personal Responsibilities and Work Opportunities 
Reconciliation Act (PRWORA) affecting Tribal governments. Participation 
in the Child Care and Development Block Grant allows Tribal governments 
and organizations the opportunity to design, implement, and support 
programs which are beneficial to the unique needs of our Tribal 
citizens. The mission of National Indian Child Care Association is to 
unify tribes and tribal organizations to promote high quality 
culturally relevant child care and development. National Indian Child 
Care Association provides leadership, support, and communication on 
behalf of Native America, Alaska Native and Native Hawaiians children, 
families, and communities. NICCA also recommends that any language 
regarding CCDBG properly include Native Hawaiians and these proposed 
technical corrections would not have Native Hawaiian compete with 
American Indians or Alaska Natives for limited funding. Instead, these 
technical corrections address the CCDBG bill's requirements that states 
serve all Native populations and coordinate with Native organizations; 
and apply strong child care standards to all Native child care 
organizations.
    The number of Tribal child care programs receiving funding through 
the Child Care and Development Block Grant has increased. The amount of 
funding that Tribes and tribal organizations receive each year is 
contingent upon the number of Tribes and tribal organizations 
participating and the number of children in each Tribe or service area. 
The per child amount of funding for Tribes has decreased from $164.00 
per child in 2002 to $140.00 per child in 2011. That is less than the 
per child rate that was received by Tribes and tribal organizations in 
2001. The percent of set aside for Tribes and tribal organizations is 
currently ``up to two percent at the discretion of the Secretary.'' 
Currently, tribal set aside is at the maximum we can receive under 
current law, which has been the same since 1996, although services 
rendered by Tribal child care programs have significantly increased, 
cost of living (inflation), the demand for child care (assistance and 
capacity), and more tribes receiving CCDBG funding has been a hardship 
for Tribal child care programs throughout Indian Country.
    While Tribal child care has been diligently providing quality child 
care to parts of the country that are typically rural, high poverty 
areas, funding to maintain that quality and expand services remains a 
huge barrier. As you are aware, the CCDBG has not been reauthorized for 
the past 17 years, and with additional tribes receiving CCDBG funding, 
the two percent has been rationed to even more tribes. While there is 
hope of a reauthorization of CCDBG, Tribal child care programs will 
continue to lose ground if the tribal set aside is not increased to 
five percent. Due to the inadequate investment in child care, tribes 
are constantly having to decide on what is more important, serving more 
eligible children or improving quality.
    As a tribal CCDBG Tribal Administrator since 1993, I have first-
hand experience of implementing CCDBG services and know the many facets 
of child care licensing, child care assistance, training, quality 
rating, school readiness, parent engagement, economic development and 
early learning. The White Earth Child Care Program was created in 1993 
when the Tribe received CCDBG funding, which has allowed us to provide 
child care assistance, develop our own tribal licensing standards, 
which in some areas, exceeds the State's licensing standards for 
family/group child care, provide quality improvement grants to 
providers and centers to meet licensing requirements or improvement, 
School-Age Child Care grants, monthly monitoring visits, early 
childhood curriculum/child development training, and manage two child 
care centers (one is funded by CCDBG & parent fees and other is funded 
by the Tribe & parent fees). We also provide outreach and resources to 
relative caregivers who provide child care (unlicensed), and provide 
(free) community trainings on child development, parenting and school 
readiness. While we are one of the larger Tribal child care program, 
there are as many high quality smaller Tribal programs, that are 
struggling to maintain services. The Colusa Indian Community in Colusa, 
CA for example, receives $26,000, and serves 70 children, could only 
subsidize approximately 4 children per year based on our current grant 
award per year, which would only cover tuition. The Colusa Center has 
made tremendous efforts to meet the highest quality in early learning 
and development possible and state they are fortunate that the Tribe 
believes in investing in early care and education. They would turn 
children away more than accept them in our care if the Tribe didn't 
invest funding. They also struggle to meet the needs of their children 
enrolled who have special needs. Services are often limited to one 30 
minute session per week, leaving their staff to care for children on a 
one on one basis, leaving a higher ratio for other staff. They cannot 
afford to pay for more staff. This is a constant balance and struggle, 
as well as being able to afford specialized training and/or staff who 
have the training and education.
    In 2010, White Earth Reservation was selected as one of four 
Transformation Zones under Minnesota's Race to the Top/Early Learning 
Challenge Grant, which allows us to administer the Early Learning 
Scholarship Program, to target children/families who are not in any 
kind of early learning program and provide direct services to children 
by allowing parents the opportunity to choose the best quality rated 
early learning program (parent directed scholarship program) such as 
child care, head start or school-based preschool, that fits their need. 
Children are then placed in a quality Parent Aware rated early learning 
program that will help develop a strong foundation of learning. In 
order to help families support healthy brain development, parents are 
required to attend a minimum of 4 hours of child development training 
per year (parents, providers and community members are invited to all 
trainings our Program provides) and are assigned a Parent Mentor that 
provides early literacy and language development resources on a monthly 
basis. The collaboration with the State of Minnesota is to ensure 
quality early childhood access to children who would not otherwise be 
in an early childhood setting prior to entering kindergarten, was made 
possible because, of our established tribal CCDBG program, as a vehicle 
for reaching hundreds of Indian families and rural communities. While 
this is unique to tribes in Minnesota, not all Tribes share this 
success of working with the State government and much needs to be done 
to help encourage States to reach out and work with their Tribal CCDBG 
partners. Minnesota Governor Mark Dayton and the 2013 Legislature 
approved $40 million in scholarships for families to access high 
quality, Parent Aware-rated early learning programs this biennium, 
along with statewide full-day kindergarten that will begin in 2014. 
These initiatives are expected to have a positive impact on 
kindergarten readiness and early learning success in years to come. 
Tribal child care programs take `school readiness' very seriously and 
work with children in our tribal child care programs to help build 
skills, knowledge, behaviors and accomplishments that children should 
know and be able to do as they enter kindergarten in the following 
areas of child development: physical development; the arts; personal 
and social development; language and literacy; and mathematical 
thinking.
    Prior to receiving CCDBG funding, the White Earth Reservation had 
only 8 state-licensed child care homes within a 1300 square mile 
radius. With 9 rural communities averaging 150 to 1,000 people in each 
community (10,000 individuals live within the reservation boundaries), 
there simply was not enough child care. With CCDBG funding, the Tribe 
developed its own licensing process and standards, there are 7 state-
licensed child care homes and 14 tribally licensed child care homes and 
2 tribally licensed centers. Of the 16 tribally licensed child care 
sites, 14 are Parent Aware rated (MN's quality rating system), with 5 
rated 4-Star, 4 rated 3-Star, 1 rated 1-Star and 4 in the process who 
will be 3-Star. Our Program also worked with 3 state licensed providers 
within the reservation boundaries who serve our Native children, to 
help them receive a 4, 3 and 2 Star rating. While the numbers of 
licensed child care sites have doubled, there are still long waiting 
lists at these licensed child care sites AND waiting lists at both 
county and tribal child care assistance programs, to help low-income 
families pay for child care costs.
    Tribes across Indian Country have shared their struggles at their 
current funding, in Washington, the Tulalip Tribe have 16 on their 
waiting list. In Muscogee Creek Nation, they have seven tribal child 
care centers, a child care assistance program, Resource & Referral and 
tribal licensing. They serve 250 children and have 75 children on their 
waiting list. The Shoshone Bannock Tribes in Idaho has 81 children on 
their waiting list in their Child Care Center. While a successful 
program, they still lack space and have to cut their budgets 
dramatically over the years with their Centers and trying not to cut 
child care assistance program. With the ever increasing food costs and 
utility expenses, they are experiencing the decision many Tribal child 
care programs are faced with having to use their limited CCDBG funds 
for quality or quantity. Muscogee Creek Nation in OK, stated that `by 
having more tribal child care programs or expanding the current 
centers, they could serve more tribal families and more jobs can be 
offered to tribal members.' Due to the number of tribal participants, 
the demand for child care in Indian communities, and fluctuation in 
tribal funding, Tribes have experienced a significant decrease in the 
ability to provide quality services in Indian Country. This is 
particularly detrimental to existing programs, which must reduce the 
level of child care services to Indian families from year to year.
    According to the Annie E. Casey Foundation, American Indian 
children are the only group that collectively lost ground since 2000 on 
several well-being indicators. Child poverty continues to rise at a 
faster rate than for any other ethnic group in the United States. 
Additionally, the child death rate for children aged 1-14 has decreased 
by 9 percent for non-Indian children but has increased by 15 percent 
for American Indian children. Indian Country has a poverty rate of more 
than 31 percent, the highest poverty rate of any ethnic group in the 
United States, nearly three times the national average. Reservations 
are experiencing unemployment rates of 50 percent, almost 10 times more 
than the national average. Native children are the most at-risk 
population in the United States, confronting serious disparities.
    American Indian, Alaska Native and Native Hawaiian children need 
quality child care settings to improve lifelong outcomes. Increased 
risk factors such as poverty, low birth weight, and low educational 
attainment of mothers contribute to the need for investment in quality 
child care in Indian country. There are many challenges faced by 
American Indian, Alaska Native and Native Hawaiian children, Tribal 
child care is a vehicle for intervention and support of quality care 
and cultural strengths. The Federal Government must take into account 
the needs by tribal communities, which must be determined by tribal 
communities, and served by tribal programs in order to make meaningful 
changes to practices. Reduced funding and resources will continue to 
undermine tribal culture and American Indian, Alaska Native and Native 
Hawaiian children's development. Mayor Charlotte Brower, North Slope 
Borough, Alaska stated ``. . . Child Care is the number one issue for 
all working parents. In order to keep full time job, working parents, 
need this service. I support sustainable, quality and affordable child 
care services and will support working parents.''
    The flexibility of CCDBG funding, allows Tribal child care programs 
to uniquely braid and immerse, culture and Native language teachings 
throughout their programming and classrooms. There continues to be 
emerging evidence that dual language early childhood education programs 
have solid potential to help children prepare for school, and helps the 
Tribe revitalize and maintain their language. If you were to visit 
Tribal child care classrooms around the country, you would see parent 
engagement, language immersion, regalia making, dance and drum. For 
children, parents and staff, making the regalia helps understand its 
meaning and helps provide an opportunity to re-engage with our culture 
from which we have become disconnected.
    While tribal child care looks slightly different in every 
community, the priority is the same, to provide high quality child care 
to tribal communities which are typically the highest poverty areas in 
the state. Tribal child care programs vary from offering center-based 
services, child care assistance, child care licensing, monitoring, 
quality improvement and health/safety grants, professional development, 
after-school programs and working with partners such as head start, 
employment agencies and schools to ensure quality and a continuum of 
services, as no one program or school can serve all the communities 
children.
    Tribal grantees participating in the CCDBG have increased from 226 
in 1994 to 258 in 2010; however, all federally recognized Tribes are 
eligible to participate and some Tribes also provide services for 
descendants of tribal members, who may not have the blood quantum to be 
enrolled. Current Head Start legislation authorizes a minimum of 4 
percent set aside for Indian Head Start programs. With inflation at 
approximately 3 percent per year, Tribes have experienced a significant 
decrease in the ability to provide services in Indian Country. This is 
particularly detrimental to existing programs, which must reduce 
funding of all child care services to Indian families. This greatly 
affects the children of families that are working to transition off of 
public assistance programs through work and educational opportunities.
No Access for Additional Funding for Tribal Child Care
    Although demands on Tribal resources have increased, Tribes do not 
have access to additional funding. States have a tax base that 
generates funds for necessary programs, and the myth that if Tribes 
have a casino, they are wealthy, when in fact, casino revenues are 
generally limited (with the exception of a few) and are put back into 
helping their tribal communities. States also have access to additional 
federal funds that tribes do not have access to, because of no tribal 
set-aside or tribal language included in new or existing initiatives. 
Child Care Development Block Grant funds are the only funds for Tribal 
child care. Native American, Alaska Natives and Native Hawaiian parents 
must have access to high quality early learning experiences for their 
children. Indian children, who are in quality early learning 
environments at home, in care with family or friends, or in more formal 
early childhood settings, experience positive outcomes later in life, 
as proven through the extensive research shows that investing in early 
childhood has a return investment.
    According to a report, ``one of the most productive investments 
that is rarely viewed as economic development is early childhood 
development (ECD). Several longitudinal ECD studies that are based on a 
relatively small number of at-risk children from low-income families, 
demonstrate that the potential return is extraordinary. In a previous 
essay, we found that, based on these studies, the potential annual 
return from focused, high-quality ECD programs might be as high as 16 
percent (inflation adjusted), of which the annual public return is 12 
percent (inflation adjusted),'' (Rolnick & Grunewald, 2006).
    When it comes to economic development, tribal child care is one of 
the key important components of economic development planning in tribal 
communities, next to jobs and housing. Jobs cannot be created without 
the support of child care services. Tribal child care is a vital 
service in Tribal communities to insure parents have the ability to 
maintain education and employment for self-sufficiency and to help our 
tribal families go off or stay off the State's TANF rolls.
    In closing, Tribal child care is not babysitting, it is a vital 
services to tribal communities and is often the glue to collaboration 
between preschool programs, school districts, parents and economic 
development. Tribal child care programs are help their State by being 
able to offer comprehensive child care/early childhood services to the 
most vulnerable communities in the State--tribal communities, and who 
better to serve tribal communities and tribal families but Tribal 
programs. Child care teachers/providers who are supported and monitored 
by Tribal CCDBG programs are proud of the services they offer; early 
childhood screenings, assessments, authentic observations, social and 
emotional skill building, culture/language, early interventions for 
children with special needs and parent conferences, that reinforce 
parent engagement and a continuum of foundational learning skills from 
home to child care, to head start on through school. While there are 
many gaps, probably the biggest one is funding, when it comes to what 
our Congress can do for tribal child care, is to help Tribal Child Care 
be fully funded by providing the 5 percent increase in the CCDBG tribal 
set aside.
    References

     Federal Register--Part II, Department of Health and Human 
Services, Administration for Children and Families, 45 CFR Parts 98 and 
99, Child Care and Development fund; Final Rule, July, 1998.

     Marks, Amy Kerivan, Goll, Cynthia Garcia, Brown University, 
Psychological and Demographic Correlates of Early Academic Skill 
development Among American Indian and Alaska Native Youth; A Growth 
Modeling Study, Developmental Psychology, 2007, Vol. 43, No 3, 663-674

     National Indian Child Care Association Legislative Issues, 2011-
2012

     Rob Grunewald and Arthur Rolnick, A Proposal for Achieving High 
Returns on Early Childhood Development, Federal Reserve Bank of 
Minneapolis, March 2006, Prepared for ``Building the Economic Case for 
Investments in Preschool'' Washington, D.C., December 3, 2004. Convened 
by the Committee for Economic Development, with support from The Pew 
Charitable Trusts and PNC Financial Services Group.

     Sarche, Michelle, Spicer, Paul, Poverty and Health Disparities for 
American Indian and Alaska Native Children, current Knowledge and 
Future Prospects, 2008 New York Academy of Sciences, University of 
Colorado Denver, American Indian and Alaska Native Programs, Aurora, 
Colorado, USA

     2012 MN School Readiness Study: http://education.state.mn.us/MDE/
StuSuc/EarlyLearn/SchReadiK/

    The Chairman. Thank you, Barb. Thank you for your 
testimony.
    Ms. Power, you may proceed.

    STATEMENT OF JACQUELYN POWER, SUPERINTENDENT/PRINCIPAL, 
                  BLACKWATER COMMUNITY SCHOOL

    Ms. Power. Chairman Tester and Senator Heitkamp, my name is 
Jacquelyn Power, and I have been the superintendent and 
principal at Blackwater Community School for the past 20 years. 
Blackwater is an early childhood through grade 2 Bureau of 
Indian Education grant school. Thank you for inviting me to 
participate in this panel and talk about the FACE program.
    Our school has participated in the Family and Child 
Education program for the past 21 years. We have been 
recognized twice by the BIE for quality implementation of this 
program and our pre-school teacher, Ms. Paul, has been 
recognized by the National Center for Families Learning as the 
Toyota Teacher of the Year.
    FACE has directly impacted the quality of our school. As a 
result, Blackwater has made AYP since the beginning of the No 
Child Left Behind legislation. FACE is the most significant 
education initiative in the BIE's history.
    The FACE program was designed to prepare preschool children 
to enter kindergarten ready to learn. FACE is the only 
evidence-based program in the BIE evaluated for the past 23 
years by Research and Training associates.
    The goals of the FACE program are to support parents and 
guardians in their role as their child's first and most 
influential teacher, strengthen family, school, and community 
connections, increase parent participation in their child's 
learning and expectations for academic achievement, support and 
celebrate the unique cultural and linguistic diversity of each 
American Indian community, and to promote lifelong learning.
    During the 23-year history of FACE, the program has 
gradually increased to five pilot sites to 43 sites throughout 
the Nation, serving approximately 41,000 adults and children. 
It is a comprehensive program consisting of home visits, parent 
education, job training, pre-school and parent and child time, 
when parents and children interact in a structured learning 
environment.
    To put a face to this date is important. One student that I 
have known since she was in elementary school stands out in so 
many ways. She had a learning disability in elementary school. 
However, as she entered a feeder school, she became discouraged 
and felt disconnected from school. In spite of her parents' 
best efforts, she dropped out of high school.
    Over the next few years, she became a mother of five 
children with little hope for the future. For her, the only ray 
of hope was the FACE program. She spent four long, hard years 
working to prepare for the GED and in December of 2013 she 
passed. So many times she expressed her interest in working 
with special needs children, because of her personal life and 
challenges. Today this student is working for Blackwater as a 
classroom aide for a special needs child. Without FACE, her 
dreams would never have been realized, and her children's 
future would have been compromised.
    When FACE started, two national models were selected for 
implementation. The Parents as Teachers Home Visiting Model was 
selected based on the curriculum's focus on increasing parent 
involvement in the child's development, plus early detection 
and referral based on developmental needs. The National Center 
for Families Learning was selected as the center-based model 
that included both pre-school and the adult education component 
that continued the role of parents as integral to the success 
of their child in school. Both of these models focused on 
parent engagement which is critical to a child's success in 
school.
    Some of the outcomes for the Home Based program show nearly 
100 percent of children from tribal families receiving this 
service enroll in preschool. Participating families have more 
than 50 books in their homes, which is significant, because 
most Native families only have 10 books.
    The results of the center-based program for preschool and 
the adult education program have consistently shown when 
children attend FACE regularly, they exceed the national 
average in English language development and vocabulary. FACE 
preschool supports school readiness with increased parent 
involvement, including reading out loud to their children, more 
literacy materials in their home, and particularly children 
with special needs with early intervention score at the 
national average.
    Throughout the history of FACE, approximately 5,250 adults 
gained employment during their FACE participation. Finally, the 
FACE program supports the preservation of Native languages. For 
Gila River this is critical because the O'Odham language is 
almost extinct. Within FACE, the parents and preschool children 
are using the computer to develop O'Odham-English books that 
they share at home and are in our school library.
    In closing, I wish to emphasize the need to continue the 
four-component model of FACE that includes technical assistance 
from our two national partners. The FACE model recognizes that 
education begins at birth, and parents are the first and most 
important teacher of their child. Today, many parents in FACE 
programs are here with me today to ask and thank Congress for 
supporting the FACE program and helping to expand it to all 
FACE sites within the United States.
    And thank you for this opportunity, and I would be glad to 
answer any questions.
    [The prepared statement of Ms. Power follows:]

   Prepared Statement of Jacquelyn Power, Superintendent/Principal, 
                      Blackwater Community School
    Chairman Tester, Vice Chairman Barrasso and members of the 
Committee my name is Jacquelyn Power and I have been the 
Superintendent/Principal at the Blackwater Community School for the 
past twenty years. Blackwater Community School is an early childhood 
through grade two Bureau of Indian Education (BIE) grant school. Thank 
you for inviting us to participate in this important hearing on early 
childhood education and to comment specifically on the impacts of the 
FACE program.
    Our school has participated in the Family and Child Education 
program for the past twenty-one years. We have been recognized twice by 
the BIE for quality implementation of this program and our pre-school 
teacher, Ms. Gwendolyn Paul, has been recognized by the National Center 
for Families Learning as the Toyota Teacher of the Year.
    The FACE program in my opinion is the most significant education 
initiative in the Bureau of Indian Education's (BIE) history. In the 
Bureau of Indian Education too often programs come and go, many without 
positive results. However FACE has continued because it is based on the 
latest research and best practices and has long term data to 
demonstrate its success. FACE has directly impacted the quality of our 
school with the result that our school has made AYP since the beginning 
of the No Child Left Behind legislation.
    The FACE program was implemented to address the need to prepare 
children for school as the majority of children enrolling in BIE 
schools were not prepared for kindergarten. It was also started due to 
the lack of resources, financial and facilities, to expand the Head 
Start Program. This situation still exists in many locations throughout 
Indian country. As an example, in our school's attendance area we do 
not have one Head Start Program. If it were not for FACE, children 
would not have access to a quality pre-natal through early childhood 
program prior to entering kindergarten at Blackwater Community School.
    FACE is the only evidence-based program in the BIE, having been 
evaluated for the past twenty-three years by an outside evaluator.
    Beginning in 1990, based on an extensive tribal consultation 
process, FACE was implemented at six sites, serving almost 500 
participants. The FACE program primarily serves families with children 
prenatal to 5 years of age by providing parenting education services, 
adult education or early childhood services. The goals of the FACE 
program are to:

  <bullet> Support parents/primary caregivers in their role as their 
        child's first and most influential teacher.

  <bullet> Strengthen family-school-community connections.

  <bullet> Increase parent participation in their child's learning and 
        expectations for academic achievement.

  <bullet> Support and celebrate the unique cultural and linguistic 
        diversity of each American Indian community served by the 
        program.

  <bullet> Promote lifelong learning.

    During the 23-year history of FACE, the program has gradually 
increased to 43 sites and has served approximately 41,000 adults and 
children. The design of the program since has been to support children 
and their families from birth through age four. It is a comprehensive 
program consisting of home visiting, parent education to increase 
parents' formal education levels to prepare them for employment, pre-
school for three and four year old children, and parent and child time, 
when parents and children interact in a structured learning 
environment. It is important to note that this comprehensive approach 
is critical as each component by itself is not sufficient to improve 
school readiness on its own.
    Two home visiting parent educators are usually employed at each 
site and are required to serve 12 families weekly or 24 families bi-
weekly, reaching a maximum of 48 families served at a site at any point 
in time. These trained parent educators work with families in their own 
homes, to help parents make age and developmentally appropriate choices 
regarding the early literacy activities, healthcare, and development of 
their children. FACE preschools can serve a maximum of 20 children and 
15 parents in the adult education component.
    When FACE started, two national models were selected for 
implementation. The Parents as Teachers Home Visiting Model was 
selected based on their curriculum's focus on increasing parent 
involvement in their child's development and learning; early detection 
of developmental delays; and helping support parents prepare their 
child for school. The National Center for Families Learning was 
selected as the center based model that contained both a pre-school and 
adult education component that continued the role of parents as 
integral to the success of their child in school. Both of these models 
focused on parent engagement that research show is critical to a 
child's success in school. Since FACE started each site has received 
continued technical assistance and professional development from these 
two nationally recognized organizations. Their commitment to quality 
training and support make it possible for FACE to produce positive 
outcomes year after year.
    Some of the outcomes for the Home Based program show:

  <bullet> Almost 100 percent of children from tribal families 
        receiving home based parent education services go on to attend 
        preschool, and they attend for a longer period.

  <bullet> 81 percent of parents report reading to their children 
        almost daily.

  <bullet> Participating families had more than 50 books on average in 
        their homes compared to the majority of Native American homes 
        with less than ten books that are developmentally appropriate.

  <bullet> 87 percent of FACE children in the PAT home based component 
        received a screening (developmental, hearing, vision, dental or 
        health), which is more than double the percentage of children 
        screened when the data was first reported in 1997.

  <bullet> 83 percent of 19-35 month old children in the FACE program 
        were current with their immunizations (compared to the 76 
        percent national average.)

    The results of the Center Based program, the pre-school and adult 
education components, have consistently shown:

  <bullet> Children who attend FACE preschool enter below the national 
        percentile rank, but leave on a level playing field with 
        children nationally.

  <bullet> Due to early intervention, FACE children are half as likely 
        to need special education services at kindergarten entry.

  <bullet> After one year of FACE preschool, children with special 
        needs score near the national average, lowering the need for 
        costly, long-term special education.

  <bullet> Indian children leave BIE FACE with significant and 
        meaningful gains in expressive language development.

  <bullet> When children attend FACE regularly they exceed the national 
        average in English language development and vocabulary.

  <bullet> That FACE preschool supports school readiness with increased 
        parent involvement, more literacy materials at home, and more 
        reading aloud.

  <bullet> Throughout the history of FACE, approximately 5,250 adults 
        gained employment during their FACE participation.

  <bullet> Most parents indicated that FACE helped them a lot in 
        increasing the amount of time they spend with their child (85 
        percent), in becoming more involved in their child's education 
        (82 percent), in increasing their understanding of child 
        development (81 percent), in becoming a better parent (80 
        percent), in encouraging their child's interest in reading (76 
        percent), and in increasing their ability to speak up for their 
        child (73 percent).

    Like these national results, in my 20 years at the school I have 
seen first hand the impact of this program in our community and in our 
families. Blackwater's FACE program serves an average of 95 adult and 
children per year in the home based and center based programs. This 
calculates to 1995 participants in the 21 years of operation at the 
school.
    Since 1993, 65 adults completed their GED diploma, 77 adults have 
been inducted into the National Adult Education Honor Society, 15 
adults received college scholarships, and one parent now sits on the 
school board. In fact, a typical class is composed of parents who 
dropped out of high school and others who enroll in college classes for 
the first time. Even more important is the parents' commitment to 
reconnecting to education for themselves and their child in the FACE 
program.
    To put a face to this data is critical to this discussion on Early 
Childhood Education. One student that I have known since she was in 
elementary school stands out in so many ways. She had a learning 
disability in elementary school. However, as she entered a feeder 
school she became discouraged and felt isolated and disconnected to 
school. In spite of her parents best efforts she dropped out of high 
school. It wasn't long after that this student became a teenage mother. 
Over the next few years, she became a mother of five children with 
little hope for a future. For her, the only ray of hope was the FACE 
program. She spent four long years of hard work preparing for the GED 
and in December 2013 she passed. On so many occasions we would talk 
about her future and what she hoped to accomplish. So many times she 
expressed her interest in working with special needs children because 
of her personal life and challenges. Today, this student is working at 
Blackwater as a classroom aide to a special needs child. Without FACE, 
her dreams would have never been realized and her future and that of 
her children would be compromised.
    Historically, the majority of parents who enroll in FACE with their 
children are mothers; however, over the years I have seen more fathers 
attend school with their children. One father that stands out entered 
FACE without a high school diploma and was a father of five children. 
In fact, both he and his wife shared the duty to attend the FACE 
program with one of their children over the years. Both of them 
completed their GEDs. His wife is in college and working for Gila 
River. The father, not only completed his GED, but also received the 
prestigious Friedlander Award in adult education for his 
accomplishments in FACE. Besides working to complete his GED, he 
started his own business as a DJ, which is highly successful. He also 
works full time for Blackwater Community School in food service and 
facilities. All of their children have thrived in school and their 
futures will be secured because of the commitment their parents made to 
FACE.
    The Home based program is equally successful and its focus on early 
screening for disabilities is a hallmark of this component. As a result 
of these early interventions, I have seen a reduction in referrals to 
special education. In fact, the school's average special education 
population has dropped from a high of over 20 percent to an average of 
10 percent.
    Equally important is the success the FACE children demonstrate when 
they enter kindergarten. These children are prepared to learn and 
demonstrate consistent proficiency in reading and math. Since the 
beginning of NCLB the school has always made AYP. Moreover, in 2013 
Blackwater was awarded a B letter grade by the Arizona Department of 
Education for its performance on the Stanford 10 test.
    Finally, the FACE program supports the preservation of Native 
languages. For Gila River this is critical because the O'Odham language 
is almost extinct. Within FACE, the parents and preschool children are 
using the computer to develop O'Odham/English web-based books that are 
then added to the school library and taken home to practice the 
language. Both the parents and children are learning their Native 
language at school as well as their culture. This is critical to the 
survival of the rich legacy of this tribe and the FACE program provides 
the foundation for this effort. The commitment to the preservation of 
the language continues in the K-2 program as well.
    In closing I wish to again emphasize the need to continue FACE as 
the four-component model as it was originally designed to include the 
provision of technical assistance from the two nationally recognized 
models. Families need and require a comprehensive literacy program that 
recognizes education begins at birth, as parents are their first and 
most important teachers. It is a proven model based on twenty-three 
years of data. I am providing for the record the Executive Summary from 
Program Year 2012 for your information as well as some preliminary 
Program Year 2013 data that will be released in the near future that 
shows current outcomes similar to those in the previous year. We thank 
Congress for its continued support of this program that is so important 
to successful education achievement of Indian children and urge 
Congress to expand this model to all BIE schools.
    I very much appreciate this opportunity to speak on behalf of this 
program and to have the opportunity to speak with you today. I would be 
happy to address your questions.

    The Chairman. Thank you, Ms. Power. Thank you for your 
stories of success.
    Dr. Costello, you may proceed.

           STATEMENT OF E. JANE COSTELLO, PROFESSOR, 
            DEPARTMENT OF PSYCHIATRY AND BEHAVIORAL 
MEDICINE; ASSOCIATE DIRECTOR FOR RESEARCH, CENTER FOR CHILD AND 
                 FAMILY POLICY, DUKE UNIVERSITY

    Ms. Costello. Chairman Tester and members of the Committee, 
thank you for this opportunity to testify today. I am a 
psychiatric epidemiologist, and would be glad to explain that.
    [Laughter.]
    Ms. Costello. I am most grateful for your continued support 
of basic science, funded in this case through the National 
Institute of Mental Health, National Institute on Drug Abuse. 
However, the views that I express here are not necessarily 
those of the NIH or of Duke University. They are my own.
    The research that I want to present to you today carries, I 
think, a very clear message: we pay now or we pay later. Let me 
explain. Our tax dollars can support poor families while their 
children are growing and developing, or we can pay the higher 
cost of obesity, alcohol and drug abuse, crime, and loss of 
economic productivity down the road. I am not just saying this, 
let me tell you about the data.
    For 20 years, we at Duke have studied the same group of 
1,400 people living in the mountains of western North Carolina, 
of whom 350 are American Indians from the Eastern Band of 
Cherokee Indians. The children whom we began to study in the 
1990s, have now grown into their 30s and we are able to look at 
the long-term effects of investments in their health, education 
and welfare.
    In particular, we are able to examine the long-term effects 
of an important decision made by the tribe 20 years ago when 
they opened a new casino on the Qualla Boundary, which is their 
home in North Carolina. Casino revenues were spent on tribal 
services in general, including behavioral health, drug abuse 
prevention, health care and education and social services. But 
in addition, every enrolled member of the tribe has each year 
received a proportion of the casino's profits for their own use 
and the use of their families.
    So did this extra money that the tribal families received, 
around $4,000 a year per person, did it have an effect on 
children's health and development? We could answer that 
question with some confidence, because we could compare the 
children's emotional and behavioral problems before and after 
the income supplements began. We found that when families lived 
above the poverty line, their children had relatively few 
emotional and behavioral problems, and the added income made 
little difference. If families were so poor that even the 
income supplement did not raise them above the Federal poverty 
line, their children had a lot of problems, which continued 
even when the families received the additional income.
    However, for the group of families who hovered near 
poverty, the cash supplement that lifted them above the Federal 
poverty line had a powerful effect in both the short and the 
longer term. In the years before the supplement, the children 
in these families had high levels of anxiety, depression and 
conduct problems. Four years after the supplement began, levels 
were no higher than in children who were never poor. The 
details of this can be found in an article of the Journal of 
the American Medical Association, which I appended to my 
testimony.

    We have now followed these children into their 30s, and 
with the aid of economist Randy Akee of UCLA and Emilia 
Simeonova of Johns Hopkins University, we have shown that there 
were marked effects of this cash supplement in many areas of 
life, particularly for those who are the youngest when the 
supplement started. As adults, they used less alcohol and fewer 
drugs. They were less likely to commit minor crimes, and more 
likely to graduate from high school. Teen pregnancies were less 
common, and the IQ of this group, when measured at age 25, was 
a bit higher. Obesity, while unfortunately high in this part of 
North Carolina, increased less after the supplement was 
introduced.
    You may well think that the investing $4,000 a year in a 
child or adolescent puts this sort of income supplement out of 
the question. So we have conducted a cost benefit analysis that 
tracks the cost of the supplement over the years against the 
savings resulting from it. We found that the cost of the 
supplement exceeded the dollar value of the benefits for the 
first four years, after which the value of the benefits 
relative to the cost steadily increased and soon substantially 
exceeded them to a total of some $20,000 by age 25.
    What these data tell me is that we pay now or we pay later. 
Twenty years of research I think have made this result very 
clear.
    Thank you for your attention, and I am happy to answer any 
questions.
    [The prepared statement of Ms. Costello follows:]

   Prepared Statement of E. Jane Costello, Professor, Department of 
 Psychiatry and Behavioral Medicine; Associate Director for Research, 
          Center for Child and Family Policy, Duke University
    Chairman Tester and members of the Committee, thank you for the 
opportunity to testify before you today. We are most grateful for your 
continued support of basic science like this, funded through the 
National Institutes of Health. My remarks today reflect my own views, 
not necessarily those of the NIH or Duke University.
    The research that I will present to you carries a clear message: 
that when it comes to raising children to be independent citizens, we 
pay now, or we pay later. Let me explain. For 20 years we have studied 
the same group of 1,400 people living in the mountains of western North 
Carolina. 350 of them are American Indian, from the Eastern Band of 
Cherokee Indians. The children whom we began to study in the 1990s have 
now grown into their 30s, and we are able to look at the long-term 
effects of investment in their health, education and welfare by the 
Tribe and the community. In particular, we are able to examine the 
long-term effects of an important decision made by the Tribe 20 years 
ago, when they opened a new casino on the Qualla Boundary, their home 
in North Carolina. Casino revenues were spent on tribal services 
including behavioral health, drug abuse prevention programs, health 
care, education, and social services. In addition, every enrolled 
citizen of the Tribe has each year received a proportion of the 
casino's profits.
    Did the extra money that tribal families received (around $4,000 
per person per year) have an effect on children's emotional and 
behavioral problems? We could answer the question with some confidence 
because we could compare children's emotional and behavioral problems 
before and after the income supplements began. We could also compare 
the Indian children with others, mainly Anglos, living in the 
surrounding counties. These, of course, were not tribal members and did 
not receive the supplementary family income from the casino. The focus 
of the study, funded by the National Institutes of Health, was on 
emotional and behavioral problems, and also on physical health and 
obesity, as well as school performance, crime, and education. We found 
that when Indian families lived above the poverty line, their children 
had relatively few problems and the added income made no difference. If 
families were so poor that even the income supplement did not raise 
them above the federal poverty line, their children had a lot of 
problems, which continued even when the families received additional 
income. However, for families that hovered near poverty, the cash 
supplement that lifted them above the federal poverty line had a 
powerful effect in both the short and longer terms. Four years before 
the supplement, children in these families had high levels of anxiety, 
depression, and conduct problems; four years after the supplement 
began, levels were no higher than those of children who were never 
poor. Details can be found in an attached article link from the Journal 
of the American Medical Association.
    We have now followed these children into their 30s, and with the 
aid of economists Randall Akee of UCLA and Emilia Simeonova of Johns 
Hopkins University, we have shown that there were marked effects of the 
cash supplement in many areas of life, particularly for the youngest 
children. As adults, they used less alcohol and fewer drugs. They were 
less likely to commit minor crimes, and more likely to graduate from 
high school. Teen pregnancies were less common, and the IQ of this 
group, when measured at age 25, was a bit higher. Obesity, while high 
throughout the area, increased less after the supplement was 
introduced.
    You may well think that the cost of investing $4000 a year in a 
child or adolescent puts this sort of program out of the question. 
However, Akee and Simeonova have tracked the costs of the supplement 
against the savings in expenditures on crime, drug abuse and mental 
health treatment, and medical care. They have found that after the 
first four years, when the cost of the supplement exceeded the dollar 
value of the benefits, the value of the benefits relative to the costs 
has steadily increased. The attached diagram link shows that by age 26, 
the latest age for which data are available, the benefits exceed the 
costs by a factor of three to one. For further details I would refer 
you to an article in the New York Times:

    http://opinionator.blogs.nytimes.com/2014/01/18/what-happens-when-
the-poor-receive-a-stipend/?smid=fb-share

    We also include links to several academic papers describing the 
effects of the family income supplement.
    Based on these data, we can choose to pay less now or pay more 
later. Our tax dollars can support poor families while their children 
are growing and developing. Or we can pay the higher costs of their 
lack of education, obesity, alcohol abuse, and crime in the health care 
and criminal justice systems and in loss of economic productivity down 
the road. Twenty years of research make the choice very clear.
    I am happy to answer any questions or provide more information. 
Thank you for your attention.

    Costello EJ, Compton S, Keeler G, Angold A (2003). Relationships 
between poverty and psychopathology: A natural experiment. Journal of 
the American Medical Association, 290:2023-2029. http://
devepi.duhs.duke.edu/library/pdf/17227.pdf

    Akee R, Copeland WE, Keeler G, Angold A, & Costello EJ (2010). 
Parents' incomes and children's outcomes: A quasi-experiment. American 
Economic Journal: Applied Economics 2:86-115. PMCID: PMC2891175. http:/
/devepi.duhs.duke.edu/library/pdf/22924.pdf

    R. Akee, E. Simeonova, W. Copeland, A. Angold, E. J. Costello: 
Young adult obesity and household income: Effects of unconditional cash 
transfers. American Economics Journal: Applied Economics 2013, 5 (2): 
1-28. http://devepi.duhs.duke.edu/library/pdf/25623.pdf

    The Chairman. I want to thank you for your testimony. That 
is very interesting. I have a bunch of questions, but we are 
going to start with Mr. Wells.
    You talked early on in your testimony about qualified, 
certified teachers: being hard to get them. I got the 
impression by your testimony that you are staffed up pretty 
well, though? You have them in the classroom?
    Mr. Wells. Yes.
    The Chairman. How did you achieve it? It is a tough 
problem. How did you get them?
    Mr. Wells. Honestly, basically what we did was our Head 
Start program, we have very little turnover. The reason for 
that is because of the government's financial support. Our 
tribe puts in more money than we receive Federal money. Because 
of that we can raise our salaries and retain our teachers. That 
is the bottom line.
    The Chairman. It is driven mostly by salary.
    Mr. Wells. And we have great working conditions. We have 
wonderful facilities, great fringe benefits.
    The Chairman. One more question, you talked about child 
care and Head Start, and you talked about a program that sounds 
pretty darned good. What percentage of the population of need 
are you serving? Are you serving 100 percent of the need out 
there, or can you give me an idea?
    Mr. Wells. No. Probably 25 percent.
    The Chairman. Twenty-five percent of the need. Okay.
    Ms. Fabre, I believe it is important that all members of 
the Native community be considered in development policy. I 
appreciate the work that the National Indian Child Care 
Association has done to ensure this.
    Are there any early childhood education issues that seem to 
affect only discrete portions of Indian Country, say Native 
Hawaiians or southeastern tribes?
    Ms. Fabre. Yes. There are several. Just to talk about White 
Earth a little bit, we are a part of the Talle program, that is 
one in four tribes throughout Indian Country. I think that will 
be very helpful about breaking down the silos. There is the 
Head Start-Child Care collaboration grant that is coming out. 
That will be beneficial to a few tribes that do receive it.
    The Chairman. You gave some examples of tribal 
organizations doing a lot with a little bit of money. 
Specifically, as it regards enrollment. Would an infusion of 
capital be enough to increase capacity? As we have seen with 
some tribes, infrastructure is a problem. I think it is more 
than just a few of the tribes. So do you get my drift here?
    If we have capital for, let's say to increase the number of 
teachers we have, would we also need to have capital for 
infrastructure?
    Ms. Fabre. Yes. We also require teacher qualifications, and 
it costs more to pay teachers with credentials.
    The Chairman. Yes.
    Ms. Fabre. So of course that comes with high quality. We 
also need child care assistance. We have the funding for child 
care, CCDBG is critical in Indian Country right now. Because we 
are struggling with having to decide on quality versus 
quantity. It is always a balancing act.
    The Chairman. Okay. Ms. Power, superintendent and principal 
at Blackwater Community School, been there for a number of 
years, 20, have you seen a cultural shift during your time 
there?
    Ms. Power. I have. And it really has come from the FACE 
program. We have had it so many years that the parents who have 
gone through this program are an integral part of our whole 
parent involvement. Many of them actually have ended up working 
for our school now, starting part-time, going to full-time. But 
because many of them have multiple children, they stay very 
connected to the school. One of our parents is a school board 
member.
    But it really has changed how they look at school, because 
there was, when I first came there, most of the parents saw 
school as, you take care of the children and we will sit back. 
But the FACE program is so empowering. It was targeting most of 
the young parents that had dropped out of school and had no 
other options in front of them. So they come back, and this 
program is unique because it lifts the whole family. They are 
required to come to school every day with their children. So 
they now have a different perspective on school, and they are 
very much involved.
    The Chairman. Okay, you have been there 20 years. How about 
the students? Maybe I should say the children of the parents.
    Ms. Power. Again, because the program certainly does, it 
actually starts at inception with home visiting, we have two 
home visitors and they work with those families until the 
children turn three, then they come into preschool with their 
child. Then we track them academically as they go into K-2 
school with the Bureau of Indian Affairs. So we track them 
transitioning into kindergarten, to give them NWEA/DIBELS to 
see where they are. And we find those children are academically 
stronger.
    The Chairman. Good. That is good. Senator Heitkamp?
    Senator Heitkamp. Just a couple of questions. One is the 
challenges of credentialing. I don't think there is any doubt 
about it, and I really applaud the programs that you have 
described as really requiring a high level. But what if we 
can't achieve that? Are we sacrificing quality? I will give you 
a for-instance. Right now, Mandan, Hidatsa and Arikira Nation, 
in the bowl of the Bakken, even if you could recruit a teacher, 
there is absolutely place for a four-year degree teacher to 
live. So with the standard of 50 percent, the Federal standard 
of 50 percent, they are finding it extraordinarily difficult to 
meet the Federal standard.
    So do you give up and send the kids home? That is the real 
challenge here. Have you looked at any strategies to do home-
grown credentialing, or can we look at some other kind of 
strategy to make sure there are quality programs without having 
this hard and fast rule of 50 percent? I will start with you, 
Mr. Wells.
    Mr. Wells. That is basically what we are attempting to do, 
is home-grown. Because within our division of education, we 
have higher education. So we know what we are turning out, we 
know what we are paying for. So therefore, we have a list. We 
are looking for those students that we can encourage to come in 
and work for the tribe. So we are doing some of that.
    In Ada, Ardmore, it is probably not quite as difficult, but 
in those little rural towns, it is really, really difficult, 
because people don't want to live there. They want to live in a 
little larger area. From my perspective, a retired school 
teacher, I think education is important no matter what. And 
yes, we absolutely want the top, we want the best that we can 
provide. But some is better than none. And I don't want to give 
up on a program that I think is successful. Child Care and Head 
Start both are extremely successful programs. They make a 
difference. They always made a difference and they will 
continue to make a difference.
    The ideal scenario is we have totally qualified, certified 
teachers. That is what we are trying to get to. It is a 
challenge. It is going to be a challenge, it has been a 
challenge. We try to home grow them, we try to get people 
involved, we try to encourage our young people as they go 
through school to consider being a teacher.
    Senator Heitkamp. Mr. Wells, have you ever tried to stipend 
teachers? Kind of look at kids out of high school who may want 
to go to college, provide the resources for college with a 
commitment for----
    Mr. Wells. We pay a supplemental, is what we pay for all of 
our students--Chickasaw students--that go into college, we 
provide supplemental funding. We pay books, we pay fees, we 
pay--not all of them, that is why it is a supplemental program. 
We will pay up to 12 hours. So we are attempting to do what we 
can. I don't know if that answered your question or not.
    Senator Heitkamp. I am trying to get a commitment from you 
that if we just help transition these folks that maybe the 50 
percent hard and fast rule is one that needs to have 
flexibility.
    Mr. Wells. I think it needs to have flexibility, 
absolutely.
    We have kind of backed ourselves into a corner. We are 
making a requirement that is difficult to meet. If you talk to 
anyone in Indian Country, I think you will find even though we 
are successful, we are not completely successful. Right now, we 
are short a teacher. We have been trying to get a teacher 
identified for three months.
    Senator Heitkamp. It is so tough, because we want 
absolutely the highest quality. But we also don't want to 
credential our way out of a program.
    Mr. Wells. Absolutely.
    Senator Heitkamp. I think Ms. Fabre, obviously you have the 
same kind of level of challenge. Can you repeat a statistic? I 
was looking for that in your written testimony and couldn't 
find it quickly. It is the one on vocabulary.
    Ms. Fabre. It is Dr. Risley's work, and it is children from 
high poverty areas, and children of color, particularly, are 
coming to school with 3,000-word vocabulary, and middle class 
children are coming to school with a 20,000-word vocabulary. It 
is huge.
    Senator Heitkamp. And isn't it true among a lot of 
academicians, they will tell you they will never catch up? You 
start out that far behind and it is so extraordinarily 
difficult to catch up.
    Ms. Fabre. I agree. But I have hope. Because our Early 
Childhood is making a difference.
    Senator Heitkamp. We can't have anything but that. But that 
is hope that you can in fact better prepare children into 
schools. But without that early childhood intervention, to try 
and say, okay, now you are going to go to first grade or 
kindergarten, and you are going to compete on this level for 
attention in the classroom, when you are so far behind in terms 
of your understanding of the language, even, there you are. It 
just I think reinforces the Chairman's observation and 
certainly the reason why I am here, this absolutely is the 
beginning of a change. If we don't do it here, we will continue 
to spin our wheels. We will continue to spend money on Title I, 
we will continue to spend money on prisons, we will continue to 
spend money on juvenile detention. And we will continue to be 
frustrated.
    So I want to thank all of you for the tremendous work that 
you have done, for keeping hope and faith that we can in fact 
change this. It is for so many children the absolute hope of 
the future.
    The Chairman. You are on a roll.
    I have a few questions for Dr. Costello. Your research is 
incredibly interesting. You talked about a $4,000 stipend for 
350 Cherokee out of 1,400 you dealt with. Do you know; what is 
the poverty line for a family of four?
    Ms. Costello. It varied from year to year across the 20 
years of study, but around $25,000.
    The Chairman. Could you give me just, I will let you flesh 
this out a little more, a little bit more about what you saw 
before and after the stipend when it came to early childhood 
development?
    Ms. Costello. I have to make a couple of caveats. The study 
starts later in age, we didn't start the study until they were 
nine. We want to do another study going back even earlier on.
    The other thing I want to say is that we didn't go into 
this with funding to do this study. It emerged serendipitously 
out of our study of the development of the emotional and 
behavioral problems, which included the Eastern Band of 
Cherokee. And they did this thing of opening a casino and 
putting money into families, both into the community and into 
families. What we saw was, looking at the difference between 
before and after, a significant fall in the number of emotional 
and behavioral problems, conduct issues.
    The Chairman. So let me ask you this, and you talked about 
the three different groups, folks that were already above the 
poverty line, the folks that were hovering around the poverty 
line, a little below, and the folk who were poor. And I believe 
your testimony talked about the folks above the poverty line 
did about the same after the stipend as before, and the folk 
who were very poor did about the same after the stipend. It was 
the folks you got above the poverty line that really made a 
difference.
    I would assume this includes everything, teen pregnancy, 
drug abuse, scholastic underachievement, the works?
    Ms. Costello. Yes, it did.
    The Chairman. Did you see any rise at all, any improvement, 
should I say, at all, as far as the folk who were extremely 
poor?
    Ms. Costello. Yes, but people don't stay in the same band, 
the same poverty band forever.
    The Chairman. If they stayed in that poverty band, nothing 
improved?
    Ms. Costello. If they stayed in that poverty band, nothing 
shifted them. I think it is important to say that exactly the 
same patterns were seen in the White community that surrounds 
the Qualla Boundary. Because we studied 1,000 White kids too. 
So what I am saying is this was a general pattern. But we 
couldn't ascribe cause to it in the White community, because 
kids could have moved out of poverty because their families 
worked harder or something.
    The Chairman. How widespread is the information you got? 
What I am asking is, have any of the agencies asked for it, or 
do you offer to pass it along? It looks like we have a lot of 
programs out there, we are spending a lot of money on them, 
maybe we ought to just give them a cash stipend.
    [Laughter.]
    Ms. Costello. Well, it is an option.
    [Laughter.]
    Ms. Costello. The thing is that the research to find out 
the answer to your question is extraordinarily expensive and 
time-consuming. This study, as I said, has gone on for 20 years 
and cost the Federal Government many millions of dollars. It is 
very difficult to set up an experiment where you say, well, 
let's assign some people randomly to be poor and some people 
randomly to be less poor.
    The Chairman. So I am going to ask the question I meant to 
ask to begin with, and that is, it looks like you have some 
pretty interesting information, pretty informative information. 
You have spent a good potion of your life doing it. Who is 
using it?
    Ms. Costello. Well, the Nobel Prize-winning economic Jim 
Heckman from Chicago is using it to support his efforts, which 
you may be familiar with, to encourage early education, 
investment in early education. He actually uses our data for 
that.
    The Chairman. Good. That is good, because it appears to me 
to be good research, and it should not end up in a file 
somewhere and not be paid attention to.
    I want to thank the witnesses. We have a few other 
questions we will put in for the record, if you have the time.
    Senator Heitkamp. Mr. Chairman?
    The Chairman. Yes, Senator Heitkamp.
    Senator Heitkamp. Could I just make a point?
    The Chairman. You can ask another question if you like.
    Senator Heitkamp. Thank you. The Congress is currently 
considering, and this is to the doctor, currently considering a 
minimum wage increase. As you know, the current minimum wage is 
$7.25 an hour, which results, for a full-time worker, 40 hours 
a week, in $15,000. If the minimum wage increased that we are 
looking at, which is $10.10 an hour would actually be achieved, 
that would be a $6,000 increase in salary for that family that 
year. I am wondering, and I know this is a little off topic, 
but it seems to me that your research would suggest that that 
influx of dollars could have a mammoth impact long term in 
terms of investment. So I just wanted to make that point.
    Ms. Costello. Thank you. I agree.
    The Chairman. Point well taken. Thank you very much for 
your testimony.
    In closing I would just say this, we appreciate everybody 
who testified today. When I first came to this Committee, Byron 
Dorgan was chairman and Craig Thomas was ranking member. Byron 
Dorgan was from North Dakota, Craig Thomas was from Wyoming. I 
often showed up and was the only member there from Montana, so 
it is interesting how the cards in the deck have been shuffled.
    We thank you all for your testimony, appreciate it, and 
this isn't the last hearing we will have on it.
    With that, the hearing is adjourned.
    [Whereupon, at 3:43 p.m., the Committee was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Brian Schatz, U.S. Senator from Hawaii
    This is the first hearing of the Senate Committee on Indian Affairs 
with Senator Tester serving as our Chair. I look forward to working 
with Senator Tester in his new role, as well as continuing to work with 
Senator Barrasso as Vice-Chair. This committee has always been 
fortunate to have leaders from both sides of the aisle committed to 
bipartisan collaboration. I am very confident that Senators Tester and 
Barrasso will build upon that tradition and forge the kind of close and 
productive working relationship needed to make progress for native 
communities and address longstanding problems.
    Thank you for holding this important hearing today. I support a 
strong federal commitment to early childhood development and education 
programs for native families. Such programs are an integral part of the 
trust responsibility of the United States and are fundamental to 
helping native children succeed, and native communities thrive.
    I have had the opportunity to visit and observe early childhood 
development and education programs throughout my state. In addition, my 
wife and I have two young children. Like parents everywhere, we 
struggle to balance our responsibilities and the new challenges we must 
confront with our children on a daily basis. My experiences as a parent 
have only strengthened my resolve to make a positive difference in 
policies and programs designed to benefit children and help them get 
the best possible start in life.
    Unfortunately, in far too many native communities across this 
nation, a lack of early childhood resources places native children at 
risk of falling behind other students from their first days in school. 
We must work together to build more opportunities for native children 
to learn and excel in school and fulfill their true potential.
    Some of the steps to make a positive difference are clear. We must 
move forward reauthorization of early childhood development and 
education programs that have proven effective addressing disparities 
faced by Native Hawaiians, Alaska Natives, and American Indians. We 
must work hard to sustain funding levels, further strengthen existing 
programs, and establish new programs to build upon the foundation we 
have already established.
    We must also ensure that limited federal spending is targeted to 
achieve the most positive outcomes. And the need to improve 
coordination, maintain meaningful tribal consultation and promote self-
determination will be critical to our efforts to make early childhood 
development and education programs work better for native families.
    We need to provide tribes and native communities with the tools and 
support needed to design programs in ways to best serve the needs and 
circumstances of native children in their communities. I have had the 
opportunity to visit and observe early childhood development and 
education programs serving Native Hawaiian children and families 
throughout my state. These programs are succeeding with at-risk 
children and defying the odds.
    Programs serving the Native Hawaiian community focus on family 
literacy and provide an integrated model for early childhood 
development and education based on substantial parental involvement and 
participation. Hawaii is unique among the states in recognizing both 
its indigenous language and English as official languages. The Punana 
Leo preschools in Hawaii were the first preschool program in the United 
States to be conducted entirely through a Native American language. 
This statewide system of preschools has served as a model for Native 
American language preschools throughout our country. In short, the 
schools and programs I have observed are creative, innovative and 
modern, while at the same time rooted in Native Hawaiian culture, 
traditions and values.
    Teaching a child, using his or her culture and Native language as a 
foundation, has proven its merit, including early literacy outcomes. 
That is why I am an original sponsor and strong supporter of S. 1948, 
the Native Language Immersion Student Achievement Act, introduced by 
Senator Tester. This bill would create a federal grant program to 
support schools using Native languages as the primary language of 
instruction from preschool through university levels.
    Our SCIA oversight responsibilities are broad and we must depend on 
a myriad of stakeholders to assist us in our work. So thank you for 
joining us here today and offering your oral and written testimony. I 
look forward to working with all of you to enhance educational 
opportunities and outcomes for American Indian, Alaska Native and 
Native Hawaiian students. Thank you.
                                 ______
                                 
  Prepared Statement of Ginger Goes Ahead, Program Manager, Crow Head 
                             Start Program
    On behalf of children and families that reside within the exterior 
boundaries of the Crow Reservation, in Montana and Indian Country 
across the United States of America, here is written testimony of the 
issues and need for Early Childhood Educational opportunities within 
the Native population.
    The Crow Head Start Program is a vital service to children and 
families that serve 304 students in four centers located in Crow 
Agency, Pryor, Lodge Grass and Ft. Smith. As of the December 2013 
enrollment, there are 14,000 enrolled members of the Crow Tribe, and of 
those 540 Crow Tribal children are between the ages of 3-5 years old. 
They represent the future and the stability of the Crow Tribe and 
reservations across the country. Often children are facing barriers 
that affect the family structure and tribal communities. Knowledge of 
limited community resources present themselves in the lives of Natives 
across the United States as they change with funding sources and the 
quick depletion of program funds. The Crow Head Start Program employs 
70 people, and is the second largest program within the Crow Tribe.
    Poverty levels are substantial within the Crow Tribe. Currently, 
the unemployment rate is at 47 percent among total enrolled members. Of 
the 14,000 enrolled members there are currently 6,500 members who 
reside on the reservation over the age of 18 years old. Of those 6,500 
tribal residents the unemployment rate is at 80 percent. When a person 
visits the Crow Reservation you immediately notice substandard 
buildings and homes. The high cost of improving infrastructure within 
the Crow Tribe has proved to be a barrier that all have to face. The 
ability to improve water systems, sewer systems and utilities are 
outstanding in cost. Transportation, safe housing, preventative health 
care, nutrition and negative stereo types are prominent issues children 
and their families face daily. The Crow Reservation is a rural entity 
with limited access to consistent community resources such as housing, 
preventative health care, educational and nutritional programs.
    An opportunity and access to early childhood educational settings 
are crucial in changing mindsets, lives, communities and families 
within the reservation. The Crow Head Start Program partners with; 
Ronald Mc. Donald Care Mobile, Big Horn County Best Beginnings 
Coalition, Pryor School District, Lodge Grass School District, Hardin 
School Districts, STEP developmental services, WIC, HRDC and Crow/
Northern Cheyenne Hospital, IHS and various Tribal and BIA Social 
Service programs to provide services to children and their families.
    Early Childhood Educators; with the best of intentions are often 
under-qualified. This largely is due to the minimal opportunities of 
employment within the Crow Reservation. Often Crow Tribal members, who 
have received a college education, will move on to higher paying 
positions within the tribal systems, move onto the public school system 
with better benefits, or move into larger cities to gain employment and 
maintain better housing.
    Furthermore, Crow Tribal members have access to health care but the 
quality of the services are that IHS provides are minimal. For 
instance, the Dental department is geared to serve people with 
emergency dental issues. It is rare to have obtained a dental 
appointment due to the process to schedule one. Appointments are given 
out once a month. A person needing to schedule a dental appointment 
must call the first Monday of the month precisely at 8 am. In doing so, 
a Tribal Member calls the Crow/Northern Cheyenne Hospital that has a 
voice recording service that does not properly transfer phone calls. I 
personally have not been able to get my children or myself, an 
appointment for 8 years and have only had access due to emergency 
dental issues, such as broken teeth with abscess. Preventative dental 
care is not a prominent service within Tribal communities. This is just 
one testimony to the quality of health care that the children and 
families of the reservation receive.
    Additionally, federal reviewers come and assess the Crow Head Start 
Program, the classroom teacher/student interaction is scored on CLASS 
(Classroom Assessment Scoring System). This scoring system does not 
take into account the Native culture and imposes ideologies of 
mainstream non-native ways of instructing students of this age. Two of 
the four domains; Classroom Behavior and Instructional Support, does 
not take cultural communication into account.
    Crows are a quiet people, who speak when spoken to. Parents, elders 
and clan systems guide children predominantly through directed 
communication which reflects negatively within the CLASS scoring 
system. Naturally, adults tell children what needs to be done, rather 
than give the ability to make those decisions on their own. This gives 
children the boundaries they need in order to feel safe and secure 
resulting in less behavior problems.
    Culturally, Crows are given the right to speak in public. Which; 
means in a public gathering, you must present your prayers and wishes, 
to a person given the right to speak. This person, usually a leader 
within the Clan or community, will then repeat your prayer or wish.
    Crow Head Start students are a product of ancestors that were once 
educated in boarding schools against the will of the parents, thus; 
creating distrust of public educational systems. The seed that was once 
planted has reaped generations of Crow people; who have not only 
discouraged obtaining an education but also, the importance of 
attendance. This misunderstanding can only be changed continually, 
starting with young parents. Gearing young parents and their children 
to understand the importance of nutrition, safe and healthy lifestyle 
choices and academic preparedness is one way to break this mindset that 
hinders most Native people to achieve success outside the reservation.
    The Crow Head Start Program has been placed on DRS (Designated 
Renewal System) within the Office of Head Start due to health and 
safety of the building, CLASS scores for teacher/student interaction, 
database implementation and effective parent services. In order to 
change these systems the Crow Head Start is working with FHI 360 to 
ensure a proper Head Start Program is being implemented. We have 
regular staff and parent trainings, implemented Child Plus data 
collection software, regular cleanings and improvements of the 
buildings.
    However; those who work in the Crow Head Start Program, still 
struggle to provide a quality program due to the structural integrity 
of the Crow Center building, a failing boiler and aging buses. The 
transportation portion of our program continues to face ongoing major 
maintenance issues with providing service to ensure 85 percent 
attendance within the program standards. ``Ensure a Quality Head Start 
Program, Serving the Crow Nation, Exists into the Future'' is the goal 
of our program and with barriers we face daily become increasingly 
impossible.
    Culturally, we as Native American's, are a beautiful people with 
many assets that most don't revere as essential, in training children 
in the way that they should go. Crow Culture has a clan system in 
place, which trains children as a village should and though our customs 
and ways may look and sound different from mainstream America. 
Kindergarten preparedness is the rising need for these children as they 
enter the private and public school systems. The Crow Head Start 
Program goal for this year and upcoming years, is to raise entrance 
scores for Crow children entering Kindergarten.
    Thank you for your time and attention to the needs of the Crow 
children and their families and Native people across the Great United 
States of America.
                                 ______
                                 
   Prepared Statement of Sharon Darling, President/Founder, National 
                  Center for Families Learning (NCFL)


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 ______
                                 
    Prepared Statement of the National Indian Education Association
    The National Indian Education Association (NIEA) appreciates the 
work of the Senate Committee on Indian Affairs for recently holding a 
hearing on ``Early Childhood Development and Education in Indian 
Country: Building a Foundation for Academic Success.'' We request this 
written testimony be submitted into the record. NIEA is the most 
representative and inclusive Native education organization in the 
United States. NIEA's principal goal is to advance comprehensive and 
equal educational opportunities for American Indian, Alaska Native, and 
Native Hawaiian students. Through this vision, NIEA supports 
sovereignty over education by strengthening traditional Native cultures 
and values that enable Native learners to become contributing members 
of their communities.
    The Federal Government must uphold the United States' trust 
responsibility to Native education and including early education within 
that context is critically important. Research suggests that early 
education is the most effective and cost-efficient investment the 
Federal Government and Native communities can make because providing a 
strong education foundation increases a student's future academic 
success, quality of life, and ability to attain college and careers.
The State of Native Education
    Native education is in a state of emergency. Native students lag 
far behind their peers on every educational indicator, from academic 
achievement to high school and college graduation rates. Just over 50 
percent of Native students are graduating high school, compared to 
nearly 80 percent for the majority population nationally. Further, only 
1 in 4 Native high school graduates who took the ACT scored at the 
college-ready level in math, and only one-third in reading as compared 
to more than half for white graduates. This resulted in only 52 percent 
of Native students enrolling immediately in college in 2004.
    Increasingly alarming, only 40 percent of those students actually 
graduated college with a bachelor's degree by 2010. Nearly 62 percent 
of White students graduated. For Native students to succeed in 
secondary and post-secondary education, they must have a strong 
foundation in early childhood learning. A child's brain grows the 
fastest in the first five years of life, and research shows that high 
quality early education has a positive impact on a child's cognitive, 
social, and emotional development to help prepare for success in school 
and in life.
Equity in Early Education
Cultural Inclusion and Familial Engagement
    Early childhood education models should advance the unique 
linguistic and cultural identities of Native children and students, so 
that our children are educated in their Native language as well as 
English and use assessment tools appropriate to the language of 
instruction. Models should support multiple delivery systems, such as 
family-child interaction learning programs and home visit programs that 
have strong familial engagement components and display measurable 
success rates. Instruction in early childhood education can be 
delivered in a multitude of models, which take advantage of and 
reinforce the fact that families have a critical support role in a 
child's education, particularly during their formative years. Research 
illustrates that actively including families throughout a child's early 
education will improve verbal, motor, and adaptive skills as well as 
guarantee greater academic success in subsequent years.
    Collaboration Opportunities
    Indian head start and early childcare programs, as well as tribal 
education agencies, have decades of experience providing early 
educational opportunities to Native children. Tribal inclusion is 
particularly imperative for achieving the goals introduced in recent 
grant competitions, like Race to the Top--Early Learning Challenge, 
which seeks to prepare more children for kindergarten and build a 
strong foundation for educational success. For Native students in 
tribal communities, tribal partnership and input exemplifies locally 
directed education and is critical to developing a student-centered 
learning environment that meets Native children's unique cultural and 
linguistic needs.
    As the Department of Education continues to administer programs and 
grant competitions, it is essential that the federal agency recognizes 
the right of tribes to govern their individual programs under self-
governance grants under Public Law 100-297 or Public Law 93-638 self-
determination contracts. Ensuring tribes are in the position to work 
effectively and efficiently with all federal agencies--as they do with 
the Department of Health and Human Services to administer Indian Head 
Start programs--is essential as tribes expand authority over their 
local education systems.
    Congress should also ensure early education partners are working 
with Native-serving institutions of higher education, such as Tribal 
Colleges and Universities (TCUs), because tribal citizens and 
reservation residents often choose to attend TCUs as they are local, 
affordable institutions of higher education. Collaborating with these 
institutions would help ensure that partnerships include stakeholders 
that better understand Native students' needs. Further, partnerships 
with TCUs would, in turn, support TCU students and result in a 
culturally cognizant workforce that better understands and works within 
early education systems.
Full Funding
    The Head Start model, with its holistic approach, has been 
extraordinarily effective in Native communities. Head Start has been 
and continues to play an instrumental role in Native education by 
combining education, health, and family services to model traditional 
Native education--accounting for its success. While sequestration was 
stymied for the next two fiscal years, it is critical Congress 
permanently replaces the sequester to protect Native education 
programs, like Head Start, from future reductions.
    Current funding dollars provide less for Native populations as 
inflation and fiscal constraints increase, even though research 
suggests there is a return of at least $7 for every single dollar 
invested in Head Start. NIEA requests Head Start and Early Head Start 
funding levels to be increased to $9.6 billion to replace the 
disparaging effects of sequestration and provide upfront federal 
investment in Native children and avoid more costly social 
interventions in the future. This additional funding would allow early 
education to reach more tribal communities and help more Native people 
by triggering the Indian special expansion funding provisions (after a 
full Cost of Living Allowance has been paid to all Head Start 
programs).
Increased Access
    Early education programs must ensure equal access for Native 
communities and Native-serving institutions in order to better serve 
our populations. For example, the Bureau of Indian Education (BIE) is 
ineligible for the Department of Education's Race to the Top 
competitions. This exclusion fails to honor both the Federal 
Government's trust responsibility to provide Native children with a 
quality education as well as Executive Order 13592, ``Improving 
American Indian and Alaska Native Educational Opportunities and 
Strengthening Tribal Colleges and Universities,'' which aims to 
leverage and coordinate federal resources to expand educational 
opportunities for Native students.
    While the BIE does not operate Head Start programs, the agency 
operates 44 Family and Child Education (FACE) programs, which are 
designed as integrated models for an early childhood and parental 
involvement program assisting Native families in BIE-funded schools. 
These programs promote the early identification of children with 
special needs to provide appropriate services as well as deliver 
support for the unique cultural and linguistic diversity of each Native 
community served by the program.
    NIEA requests that the Senate Committee on Indian Affairs and 
Congress ensure that tribes and the BIE are explicitly included as 
Congress develops early education models, provides oversight to federal 
agencies administering grant competitions, and works with the 
Administration as it proposes new initiatives, like the recently 
proposed $300 million FY 2015 Race to the Top--Equity and Opportunity 
competition. Because the competition is aimed at improving the academic 
performance of students in the nation's highest poverty schools, 
Congress should ensure that tribes and the BIE are eligible entities to 
compete and better serve the nation's highest-need and most vulnerable 
students--Native children.
    Conclusion
    Once again, NIEA appreciates the continued leadership of this 
Committee and we look forward to working closely with its members under 
the leadership of Chairman Jon Tester and Vice-Chairman John Barrasso. 
We share your commitment to advancing early learning and making 
improvements to ensure the programs serving Native communities are the 
most efficient and effective as possible.
                                 ______
                                 
  Prepared Statement of Jacki Haight, President, National Indian Head 
                      Start Directors Association
Introduction
    Thank you for the opportunity to submit testimony on behalf of the 
National Indian Head Start Directors Association (NIHSDA). The American 
Indian and Alaska Native Head Start program continues to be one of the 
most effective programs in Indian Country. Using a model that is akin 
to the holistic approach of most Native communities, Indian Head Start 
provides critical family and social services. Indian Head Start is also 
on the frontline in the preservation of Native language and culture, 
which have proven to be key elements in Native student confidence and 
success in later years.
    Indian Head Start programs have been a vital part of Head Start 
since its inception in 1965, and they have a wealth of expertise to 
offer regarding early childhood education. Founded in 1979, NIHSDA has 
decades of experience as the voice of Indian programs within the 
Federal Head Start Bureau, National Head Start Association, and other 
early childhood development associations and Indian organizations. 
NIHSDA welcomes the opportunity to work with the Committee to advance 
thinking and legislation in the area of early childhood education.
The Importance of Head Start
    Indian Head Start is the most important and successful Federal 
program focused on the dire circumstances faced by all too many Native 
children, principally by addressing health, education, family, and 
community needs in a holistic manner akin to traditional Native 
learning styles and cultural practices.

  <bullet> Native children are the most at-risk population in the 
        United States. Native children confront serious disparities in 
        education, health, and safety. From 2000-2012, child mortality 
        in the United States decreased by 9 percent while the child 
        mortality rate among Native children increased 15 percent. 
        Thirty-seven percent of Native youth live in poverty, and 
        Native youth suffer suicide at a rate 2.5 times the national 
        average. Fifty-eight percent of 3- and 4-year-old Native 
        children do not attend any form of preschool. The graduation 
        rate for Native students is 50 percent. Native children 
        disproportionately enter foster care at a rate more than 2.1 
        times that of the general population and have the third-highest 
        rate of victimization.

  <bullet> Indian reservations suffer from depression-era economics, 
        with terrible crime and health statistics to match. The Indian 
        reservation poverty rate is 31.2 percent, nearly three times 
        the national average of 11.6 percent. The Indian reservation 
        rate is comparable to the national rate at the height of the 
        Great Depression. The Indian reservation unemployment rate is 
        approximately 50 percent, ten times the national unemployment 
        rate of 5.2 percent (and on some reservations the rate is 80-90 
        percent). When you consider that 31.2 percent of Indian 
        families live in poverty and that high levels of poverty bring 
        significant problems to reservations where few resources are 
        available, a need arises for Head Start to address chronic 
        community social issues.

  <bullet> Most Indian communities are remotely located and there are 
        no other resources besides Head Start to address the special 
        needs of young Indian children who, on a daily basis, must deal 
        with the conditions described above.

  <bullet> The synergistic confluence of all of these negative factors 
        is overwhelming. Indian Head Start may be the best Federal 
        program in place that actually addresses the dire situation in 
        much of Indian country, but more resources are needed.

The Federal Government's Unique Responsibility to Indian People
    The Federal Government has a unique responsibility to Indian 
peoples based on the Constitution of the United States, treaties, 
federal statutes, executive orders, Supreme Court doctrine, and 
international law. This responsibility is particularly important in the 
area of Indian education.

  <bullet> The Federal Government has a trust responsibility, 
        especially in the education area. The solemn obligations of the 
        Federal Government, often expressed in treaties and other 
        agreement, define the Federal Government's trust obligation to 
        protect the interests of Indian peoples, especially in the area 
        of education. These obligations have sadly been ignored for far 
        too long, and the impacts on Native children have been 
        staggering.

  <bullet> The Federal Government has a government-to-government 
        relationship with tribes. The Constitution, treaties, and other 
        sources of federal and international law set forth the 
        recognition of Indian tribes as sovereign nations with inherent 
        powers of self-governance. The Federal Government has committed 
        to a government-to-government relationship that manifests 
        itself in many ways, including direct and meaningful 
        consultation between Federal agencies and tribes on 
        legislation, regulatory policy, and other actions that may 
        significantly impact tribal communities.

  <bullet> The Federal Government historically has displayed a keen 
        understanding of the central importance of our ancient ways, 
        beliefs, culture and language to tribal unity and strength and 
        for years made every effort to destroy those beliefs. This 
        effort to kill our minds and our spirits failed, but not 
        without first doing great damage. Indian languages are in 
        retreat. Native students perform far below their potential. 
        Federal paternalism has created a crippling mentality for some 
        in Indian country that is founded on poor self-esteem. 
        Extraordinarily, the Native spirit has endured and, in recent 
        years, grown stronger. Much of the harm inflicted upon Native 
        peoples is being undone, to the extent it can be undone, by 
        Native people themselves. And yet the resources needed to 
        complete this great task can only be found with the originator 
        of the harm--the Federal Government.

  <bullet> It is a mark of America's unique character that the racist 
        policies of the past have been replaced with more humane 
        policies. For example, Title VII of the NCLB provides: ``It is 
        the policy of the United States to fulfill the Federal 
        Government's unique and continuing trust relationship with and 
        responsibility to the Indian people for the education of Indian 
        Children. The Federal Government will continue to work with 
        local educational agencies, Indian tribes and organizations, 
        postsecondary institutions, and other entities toward the goal 
        of ensuring that programs that serve Indian children are of the 
        highest quality and provide for not only the basic elementary 
        and secondary educational needs, but also the unique 
        educational and culturally related academic needs of these 
        children.'' (NCLB, Section 7101).

Funding Priorities for Head Start
    In 2014, $8.59 billion was enacted for Head Start funding, 
restoring Head Start to its FY 2012 funding level, plus a 1.3 percent 
inflation adjustment. This much-needed restoration marked a significant 
shift away from the devastating effects of sequestration upon Head 
Start programs across the country. As programs begin to recover from 
sequestration, it is critical to safeguard these advances by providing 
sufficient Head Start funds for FY 2016.

  <bullet> The Indian Head Start funding formula. The American Indian 
        and Alaska Native Head Start program receives its funding 
        through a formula established in the Head Start Act for the 
        distribution of Head Start funds. That formula provides for 
        Indian Head Start to receive special expansion funds to make up 
        for errors in the application of the formula over a decade ago. 
        These expansion provisions were limited in time and did not 
        take into account what happens when the initial authorization 
        under the Head Start Act expired. The AIAN program has not yet 
        received the full benefit of these provisions and their intent. 
        Indian Head Start requests that Head Start be funded at a level 
        that would achieve the goals of the special expansion funding 
        provisions of the Head Start Act. As a general matter, there 
        should be a sufficient increase in funding to make up for the 
        effects of inflation over the last several years.

  <bullet> The Indian Head Start program profile. Only about 16 percent 
        of the age-eligible Indian child population is enrolled in 
        Indian Head Start. Of the approximately 566 federally 
        recognized Tribes, only about 188 have Head Start programs 
        funded through 150 grantees in 26 states. That means 
        approximately 378 Tribes do not have Head Start available for 
        their age-eligible children. These programs employ 
        approximately 6,627 individuals and 331 contracted people: 
        3,191of these employees and 86 people under contract are former 
        or current Head Start/Early Head Start parents. There are 
        approximately 34,901 volunteers, 22,942 of which are parents, 
        working in the American Indian/Alaska Native Head Start 
        programs.

Considerations for Head Start Reauthorization and Expansion
    As the Committee considers matter related to both Head Start 
reauthorization and expansion of early childhood education programs, it 
should consider the following matters with regard to maintaining a 
foundation for success for Indian Head Start programs:

  <bullet> The need for consistent and flexible funding. Head Start 
        programs have suffered from inconsistent funding. Funding 
        levels must be sustained and built upon to ensure that 
        programmatic gains are not lost in subsequent years. 
        Additionally, there is a need for flexibility in how expansion 
        funds are spent and how funds are allocated between Head Start 
        and Early Head Start programs.

  <bullet> The need to provide a physical foundation for success. Many 
        Indian Head Start programs operate out of the oldest buildings 
        on their reservations. Lack of adequate physical facilities for 
        Head Start programs hinders the ability of these programs to 
        meet the very specific health and safety needs of young 
        children. Without the necessary physical infrastructure, 
        programs struggle to furnish the quality academic foundation 
        that Head Start seeks to provide Indian children.

  <bullet> The need to maintain and sustain program quality in 
        effective and culturally appropriate ways. Tribes are deeply 
        committed to providing excellent programs for their youngest 
        population. The government-to-government consultation with 
        regard to how accountability standards are maintained is one of 
        the great strengths of the prior Head Start reauthorization. As 
        programs expand, and as Indian Head Start increases language 
        immersion programs, there needs to be a dialogue about how to 
        reliably measure program quality in culturally diverse 
        environments and in culturally appropriate ways.
Conclusion
    Thank you for this opportunity to share the nature and needs of the 
American Indian and Alaska Native Head Start program. Its value to 
Indian Country is beyond measure. We urge your prioritization of Head 
Start as you consider ways to improve the educational infrastructure of 
Indian Country. We would welcome the opportunity to provide further 
information by testifying as witnesses at the Committee's future 
hearings.
                                 ______
                                 
      Prepared Statement of Namaka Rawlins, `Aha Punana Leo, Inc.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                 ______
                                 
          Prepared Statement of Dr. Kanoe Naone, CEO, INPEACE
    INPEACE, the Institute for Native Pacific Education and Culture, a 
Native Hawaiian statewide non-profit, supports an equitable high-
quality preschool program that works exceptionally in Native 
communities and communities of color and poverty.
    Research shows that 85 percent of the brain is developed by the 
time children turn 5. As a former Hawaiian Immersion Department of 
Education elementary teacher and as a mother I have seen the benefits 
of early education and what happens when children don't have access to 
quality learning. The single largest impact on the well-being of our K-
12 system is access to early childhood education. By providing families 
especially those in Native and low income areas, access to early 
learning where parenting education and empowerment is core, we can 
dramatically and positively shift the well-being of the children in 
those schools and areas. We believe an equitable early learning system 
is of critical importance to the success of our children and the 
economic future of our state.
    INPEACE programs serve 4,500 people each year on 5 islands, 
including: new mothers; single moms; non-traditional students, those 
returning to school to improve their lives and better their families; 
and families dealing with a variety of socio-economic challenges. 
Although we welcome everyone into our programs and even have lots of 
dads and grandpas, the majority of the participants are women, children 
and Native Hawaiian. Our programs focus on early childhood education, 
workforce development, and cultural land stewardship; and all share the 
values of community empowerment and cultural enrichment. Our premier 
early childhood program is called Keiki Steps.
    Keiki Steps is a free parent participation preschool for children 
ages birth through five. It supports families in becoming their child's 
first teacher through school readiness activities that are culturally 
relevant. Instead of dropping children off at a center to be cared for, 
our families and extended families bring the children typically to the 
local school where their older elementary age children are being 
dropped off and stay for 3 hours a day Monday through Thursday with a 
parent education or field trip every other Friday. So many of our 
families want to keep their young children with them instead of handing 
them over to others to care for them, so when both parents work, they 
typically have grandparents or other immediate family members care for 
their children. With our program, those caregivers or parents bring the 
children to our parent participation preschool also known as a Family 
Child Interaction Learning Program (FCIL). Ninety five percent of the 
staff in Keiki Steps were once parents in the program and through the 
organization's professional development program they are supported and 
required to earn a Child Development Associate certificate within 18 
months of employment, and then receive continued financial support in 
obtaining Associate's and Bachelor's degrees. As a result, this is also 
seen as a community economic development program and social justice 
program. Here is a short video showing our program in action because so 
many people have a hard time understanding just what we are: http://
youtu.be/--p7Mv42ZaSU.
    Our annual cost of $2,400 per child is \1/3\ of what typical center 
based care costs are, making it an economically viable option for 
funding. We also have conservatively $2,500 dollars of volunteer hours 
per child ($8.00 hour rate like that of a teachers aid) in the program 
because parents/caregivers are required to ``volunteer'' alongside 
their child for all hours of operation. Of note, with this model we 
have statistically significant outcomes for the children in our program 
with a substantial increase for children with multiple years of 
participation as evidenced in the increase in pretest scores from year 
to year. We use the Peabody Picture Vocabulary Test (PPVT), a 
nationally normed and validated test that is the only test that is a 
predictor of 3rd grade reading scores. While we also have cultural 
outcomes, we show that with our cultural approach to early education we 
are able to get our children ready for and successful in the mainstream 
DOE education system by utilizing a mainstream standardized test.
    Here are our PPVT results. We annually serve 750 children and an 
equal number of their parents/caregivers.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    As a Family Child Interaction Learning (FCIL) program provider, 
INPEACE supports equity in preschool options for families because we 
understand the value of this program in providing vital and culturally 
responsive services to some of the state's highest need populations. We 
are able to achieve success via FCILs by empowering families with the 
knowledge they need in order to support their children throughout 
school and life. Collectively, there are 6 organizations whom are a 
part of `Eleu (a Native Hawaiian early childhood consortium) and 
collectively we annually serve more than 25,000 children and their 
families in the state of Hawaii, almost entirely funded by the USDOE 
Native Hawaiian Education Program. We ask for continued support from 
this program but also advocate for this option to be eligible for 
funding through the Presidents new Early Learning Program. Our FCILs 
are strategically placed in underserved areas where there are high 
concentrations of Native Hawaiians and minority populations. As a 
result, these families have access to FREE & high quality early 
childhood education, a critical need in at-risk areas. Support of FCILs 
in the Federal expansion of high-quality preschool sends a clear 
message that the federal government understands the needs of the 
community and is willing to diversify the early learning options based 
on family need and choice!
    Including FCILs as an option for early learning will move our 
country one step closer to building a viable early learning system. We 
have met with folks around the country who are requesting FCILs in 
their state (in both Indian Country and other communities of color) 
because they see the value and impact in has made in like communities. 
We know this option will meet families' diverse needs and values to 
effectively serve the community more broadly and support the success of 
our most at-risk children. We support a system that provides families 
with culturally responsive, high-quality early learning opportunities 
that enables healthy, successful development, and the ability of each 
child to reach their full potential.
    Thank you for this opportunity to submit written testimony.
                                 ______
                                 
     Prepared Statement of Willeen Whipple, Senior Manager--Tribal 
           Affiliations, Parents as Teachers National Center
    My name is Willeen Whipple and I am the Senior Manager of Tribal 
Affiliations for Parents as Teachers National Center. I am an enrolled 
member of the Blackfeet Nation of Montana and part of the Sicangu 
Lakota or Rosebud Sioux Tribe of South Dakota.
    My work through the years at Parents as Teachers has included 
working on the home-based portion of the Bureau of Indian Education 
Family and Child Education (FACE) project, the Investing in Innovations 
(i3) Department of Education validation grant awarded to Parents as 
Teachers (BabyFACE), and partnering with tribes and Urban Indian 
Organizations implementing tribal home visiting programs. Parents as 
Teachers in Tribal communities includes: forty-three FACE programs, 
twenty i3 programs, thirteen Tribal Maternal Infant Early Childhood 
Home Visiting Programs in ten states, eight Region XI Early Head Start 
Programs, and twenty-seven Tribally-operated affiliates. Program 
support is also provided for fifteen Alaska Programs serving Alaska 
Natives and six Hawaii programs serving Native Hawaiians.
    Although I can't speak for all 121 programs using the Parents as 
Teachers model, I have witnessed or heard about the impact Parents as 
Teachers has made throughout Indian Country. For example, in the last 
program year a South Dakota i3 program has facilitated adult education 
outcomes including: six GED's, one Criminal Justice degree BS, 4 AA 
degrees from the Sisseton-Wahpeton Tribal College, and one Certified 
Nursing Assistant CNA certificate. We have also seen increased parent 
involvement in the elementary schools. Research shows parents who are 
involved in their child's early learning experiences continue their 
involvement throughout their child's entire learning process.
    Another area of impact is early literacy and school readiness. 
These are important goals of the Parents as Teachers model and they are 
funded goals of the FACE and BabyFACE programs. While book-sharing is a 
piece of every PAT personal visit, continuation beyond the visit is 
only possible if there are books in the home. According to the 2004-
2005 U.S. Census, 60 percent of the homes of American Indian 
Kindergartners have 25 or fewer books, compared to 25 percent of homes 
nationally that have as few. High quality children's books are 
therefore provided to each enrolled FACE and BabyFACE child every 
month. Every week parent educators in these programs see results such 
as: adults in homes with no books build book shelves to hold their 
growing children's book collection; one- and two-year-old children 
begin to choose favorite books to bring to their parents to read; two-
year-olds ``read'' a favorite book, turning the pages as they tell the 
story; parents who were afraid to even try reading a children's book to 
their child begin to read with enough expression and enthusiasm to keep 
their child's interest.
    Meaningful impact also occurs around Parents as Teachers programs' 
collaboration with tribal, federal, and state agencies to provide 
quality care for families. Programs work directly with tribal early 
intervention programs, tribal health clinics, and Indian Health Service 
IHS. Hearing and vision screening results are shared with parents and 
referrals for further screenings are made when necessary. Screenings 
and Resource Networking are two of the four PAT components.
    Parents as Teachers supports Tribal programs in their effort to 
make cultural adaptations and enhancements during the activities and 
delivery of family personal visits. Our model is an evidence-based 
model often blended with Native curricula including: Positive Indian 
Parenting and Fatherhood is Sacred. Tribes make their programs 
culturally and linguistically competent using Native language and 
practices.
    In conclusion, there is a varied need at the program level to seek 
funding and continue work in Tribal communities. The stakes are high 
for Native families and a continued investment in home visiting 
programs, as determined by the tribes, provides increased positive 
education and health outcomes for indigenous families.
                                 ______
                                 
   Prepared Statement of Wendy Roylo Hee, Executive Director, Native 
                       Hawaiian Education Council
    Aloha Chairman Tester and members of the Senate Committee on Indian 
Affairs, Mahalo, thank you, for allowing us an opportunity to submit 
comments at your oversight hearing on ``Early Childhood Development and 
Education in Native Country: Building a Foundation for Academic 
Success.''
    The Native Hawaiian Education Council (NHEC) strongly supports 
Early Childhood Education. A child's brain grows the fastest in the 
first five years of life, and research shows that high quality early 
education has a positive impact on a child's cognitive, social, and 
emotional development to help prepare for success in school and in 
life.
    Last year, NHEC worked with partner organizations to adopt policy 
statements that urge Federal and State backing of early education, 
particularly to:

        1.)  Advance the unique linguistic and cultural identities of 
        Natives and acknowledge that children can be ready in either 
        their Native tongue or English, and use assessment tools 
        appropriate to the language of instruction. In 1978, Hawaiian 
        was adopted as an official language of Hawai`i, and children in 
        Hawai`i can receive an excellent education in either of 
        Hawai`i's official languages. Common sense dictates that 
        assessments should be conducted in the language of instruction 
        for a truer measure of achievement.

        2.)  Set aside funds for Native populations, including Native 
        Hawaiians, and require states with Native American, Alaska 
        Native and Native Hawaiian populations to consult with them in 
        the development of their state plans. Native Americans, Alaska 
        Natives and Native Hawaiians all have a special status by 
        virtue of their trust relationship with the U.S. government and 
        thus should be consulted on matters that involve Federal funds.

        3.)  Support multiple delivery systems, including but not 
        limited to, family-child interaction learning programs and home 
        visit programs that have a strong family/parent engagement 
        component that is measured through an assessment tool. 
        Instruction in early childhood education can be delivered in a 
        multitude of models, including family-child interaction 
        learning programs and home visits, which take advantage of and 
        reinforce the fact that families are the primary educators of 
        their children, particularly during their formative years. 
        Research shows that involving families in early education is 
        important and linked to improved verbal, motor, and adaptive 
        skills as well as greater academic success later in school. 
        Supporting families in their ability to educate their children 
        has strong cultural foundations.

    Attached are the policies and resolutions adopted by the National 
Indian Education Association; the Council for Native Hawaiian 
Advancement; and the Association of Hawaiian Civic Clubs. * The last 
group is a national one with approximately 70 clubs, almost half of 
which are on the continental U.S. that range from California to 
Tennessee.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee 
files.
---------------------------------------------------------------------------
    In March 2013, Senator Mazie Hirono introduced S. 519, the Pre-K 
Act to direct the U.S. Secretary of Education to award matching grants 
to states to enhance or improve State-funded preschool programs. The 
bill set forth some excellent provisions, such as giving priority to 
states that have curricula aligned with State early learning standards; 
use nationally-established or best practices; and require each teacher 
to have a degree in early childhood education or a related field. In 
November 2013, a bipartisan group of legislators introduced the Strong 
Start for America's Children Act that incorporates many of the 
provisions of the Pre-K Act. The subsequent bill includes provisions 
that support Native Hawaiians even more than the Pre-K Act by including 
Native Hawaiians in the eligibility for Native set asides; requiring 
Native consultation in the development of the state plans; and includes 
funding for diverse providers.
    We are pleased that the Senate is proposing measures to provide for 
early childhood education, particularly in Native Country. This step is 
needed, not only because of the effort for Native peoples to achieve 
educational parity with the rest of the nation, but also because of the 
trust relationship between the United States and this country's first 
people. Mahalo nui, thank you very much, for your time and 
consideration.

                                  [all]

</pre></body></html>
